<html>
<title> - ARE FEDERAL AND POSTAL EMPLOYEES SAFE AT WORK?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
             ARE FEDERAL AND POSTAL EMPLOYEES SAFE AT WORK?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2010

                               __________

                           Serial No. 111-69

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
57-976                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f295829db2918781869a979e82dc919d9fdc">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         ANH ``JOSPEH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
ELIJAH E. CUMMINGS, Maryland         BRIAN P. BILBRAY, California
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2010...................................     1
Statement of:
    Goldstein, Mark, Director, Physical Infrastructure, U.S. 
      Government Accountability Office; Steven Miller, Deputy 
      Commissioner for Services and Enforcement, Internal Revenue 
      Service; Sue Armstrong, Acting Deputy Assistant Secretary, 
      Office of Infrastructure Protection and Gary Schenkel, 
      Director, Federal Protective Service, National Protection 
      and Programs Directorate, U.S. Department of Homeland 
      Security; and Guy Cottrell, Deputy Chief Postal Inspector, 
      U.S. Postal Inspection Service.............................    17
        Armstrong, Sue...........................................    39
        Cottrell, Guy............................................    51
        Goldstein, Mark..........................................    17
        Miller, Steven...........................................    34
        Schenkel, Gary...........................................    40
    Kelley, Colleen, national president, National Treasury 
      Employees Union; Jon Adler, national president, Federal Law 
      Enforcement Officers Association; and David Wright, 
      president, Local 918, American Federation of Government 
      Employees..................................................    70
        Adler, Jon...............................................    79
        Kelley, Colleen..........................................    70
        Wright, David............................................    86
Letters, statements, etc., submitted for the record by:
    Adler, Jon, national president, Federal Law Enforcement 
      Officers Association, prepared statement of................    82
    Armstrong, Sue, Acting Deputy Assistant Secretary, Office of 
      Infrastructure Protection and Gary Schenkel, Director, 
      Federal Protective Service, National Protection and 
      Programs Directorate, U.S. Department of Homeland Security, 
      prepared statement of......................................    42
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    10
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    15
    Cottrell, Guy, Deputy Chief Postal Inspector, U.S. Postal 
      Inspection Service, prepared statement of..................    53
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   107
    Goldstein, Mark, Director, Physical Infrastructure, U.S. 
      Government Accountability Office, prepared statement of....    19
    Kelley, Colleen, national president, National Treasury 
      Employees Union, prepared statement of.....................    72
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................     8
        Prepared statement of Mr. Thompson and a DOD employee....     2
    Miller, Steven, Deputy Commissioner for Services and 
      Enforcement, Internal Revenue Service, prepared statement 
      of.........................................................    36
    Wright, David, president, Local 918, American Federation of 
      Government Employees, prepared statement of................    88


             ARE FEDERAL AND POSTAL EMPLOYEES SAFE AT WORK?

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m. in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Connolly, 
and Chaffetz.
    Staff present: William Miles, staff director; Jill 
Crissman, professional staff; Rob Sidman, detailee; Dan 
Zeidman, deputy clerk/legislative assistant; Howard Denis, 
minority senior counsel; and Alex Cooper, minority professional 
staff member.
    Mr. Lynch. Good afternoon. The Subcommittee on the Federal 
Workforce, Postal Service, and District of Columbia hearing 
will now come to order. I apologize for the brief delay. We 
have a lot going on here today. Members will be coming in and 
leaving periodically. Unfortunately, we seem to schedule 
everything at the same time here in light of the work that 
needs to be done.
    I want to welcome my friend and ranking member, Mr. 
Chaffetz from Utah, and members of the subcommittee hearing, 
witnesses, and all those in attendance.
    In light of the recent attacks and violent outbursts 
against Federal workers and facilities, I have called today's 
hearing to examine Federal and Postal employee workplace 
security.
    The Chair, ranking member, and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 3 days to submit statements for the record.
    I would also like to ask unanimous consent that the 
testimony of Congressman Benny Thompson, who is our chairman of 
the Committee on Homeland Security, and that of a DOD employee, 
be submitted for the record.
    Hearing no objection, so ordered.
    [The prepared statements of Mr. Thompson and the DOD 
employee follow:]

[GRAPHIC] [TIFF OMITTED] T7976.001

[GRAPHIC] [TIFF OMITTED] T7976.002

[GRAPHIC] [TIFF OMITTED] T7976.003

[GRAPHIC] [TIFF OMITTED] T7976.004

[GRAPHIC] [TIFF OMITTED] T7976.005

    Mr. Lynch. Ladies and gentlemen, in recent weeks we have 
witnessed several brutal attacks and violent outbursts against 
Federal workers and facilities, which is why I have called 
today's hearing. Tragically, in 2010, alone, a U.S. court 
security officer in Las Vegas, and an IRS manager in Austin, 
TX, have lost their lives, while several law enforcement 
personnel, including a deputy U.S. Marshall and members of the 
Pentagon Force Protection Agency, have been injured in the line 
of duty.
    Given the rise of anti-Government feeling, as notably 
reported in the Southern Poverty Law Center's 2009 Report 
entitled, ``The Second Wave,'' I believe that, as chairman of 
the subcommittee, I have a duty to examine how well positioned 
Federal agencies and the Postal Service are for similar events.
    Today's hearing will also allow us to discuss what agencies 
are doing to provide comprehensive training and guidance to 
employees on how to respond to such threats and scenarios. It 
is one thing to hear about agencies wrestling with how to 
afford purchasing expensive security countermeasures, but it is 
quite a different matter to listen to Federal employees recount 
the lack of emergency preparedness of a particular office. It 
may be that an emergency plan exists, but if the individual 
workers aren't familiar with it and are not even practicing any 
type of evacuation drills, then what type of outcome can we 
expect if and when disaster strikes.
    An important item to note here is that the Federal and 
Postal employees warrant our respect. For some to look at the 
violence directed against IRS employees and to try to justify 
that deliberate intent to murder other human beings is simply 
inexcusable and unacceptable. Our Nation's public servants 
deserve nothing less than our full support, and to know that 
all of us, from the President to Congress, are grateful for 
their work and assistance in helping us govern our Nation.
    More importantly, our Federal employees need to know that 
we will do everything possible to keep them safe while they are 
at the workplace and away from their families.
    Today's hearing will provide us with the opportunity to 
hear from the IRS and its employee representatives concerning 
both the immediate and long-term impact of the February 18th 
attack in Austin. Additionally, we will hear from the 
Department of Homeland Security about its ongoing activities in 
the Federal building security area, as well as from the U.S. 
Postal Service's Inspection Service.
    It is my hope that the testimony and feedback we receive 
from today's witnesses will provide the subcommittee with 
precise guidance and direction.
    Again, I thank each of you for being with us this afternoon 
and I look forward to your participation.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.006
    
    Mr. Lynch. I now yield 5 minutes to our ranking member, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. And thank you for 
holding this important hearing. I appreciate all of those 
witnesses that have come to testify today.
    Needless to say, we want to make sure that every Federal 
employee and the public who is engaging with the Federal 
Government at all times is as safe as possible. People should 
deserve and expect to work in a safe environment. We need to 
constantly evaluate the standards and procedures, so I think 
this hearing is particularly appropriate at this time. I look 
forward to hearing the discussion.
    For those very few but important men and women who have 
been on the wrong end of this violence, our hearts, thoughts, 
and prayers go out to those people.
    We need to continue to strive to improve and make the 
workplace as safe as we can, but also accessible, at the same 
time.
    I look forward to this hearing. I thank, again, the 
chairman for holding it and yield back the balance of my time.
    [The prepared statement of Hon. Jason Chaffetz follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.007
    
    [GRAPHIC] [TIFF OMITTED] T7976.008
    
    Mr. Lynch. I thank the gentleman.
    I would now like to yield 5 minutes to Ms. Eleanor Holmes 
Norton, the Congresswoman from the District of Columbia, who 
has also been at the forefront of this issue, because of the 
number of Federal facilities in her District, for a long, long 
time.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I am especially 
appreciative that you have called this hearing so soon after 
the attacks in Austin and right here in the National Capital 
Region, first with the IRS in Austin, and here in this region 
at the Pentagon.
    Mr. Chairman, in post-9/11 America there has to be a 
renewed appreciation for Federal workers and the kind of 
hammering of civil servants stopped. They recognize how 
important was the work of those who are spread across our 
Government. It is very disturbing to see the uptick in attacks 
on Federal employees once again.
    Mr. Chairman, during the last 10 years or so, the Federal 
Protective Service was literally drained of employees, and it 
got so bad that we asked and the Appropriations Committee 
mandated that a certain floor of Federal Protective Service 
guards and officers be retained. There was the notion that all 
you needed was security guards, you didn't even need a Federal 
Protective Service, even though that is the oldest of the 
police forces in the Federal Government. It was very 
disconcerting.
    Mr. Chairman, I chair a subcommittee with jurisdiction over 
Federal construction and leasing, and have some jurisdiction 
over the Federal Protective Service in that regard, and I am a 
member of the Homeland Security Committee, and if I may say so, 
Mr. Chairman, the so-called Interagency Security Committee is 
something of a joke. This is a committee that is supposed to 
sit and coordinate security for Federal buildings, sites, and 
employees.
    But to show you just how ineffective is the protection of 
Federal workers, take a building like the new Transportation, 
not so old, maybe about 5 years old, the new Transportation 
Department. That is not a high security building. Mr. Chairman, 
when my staff, with their congressional tags on, have gone to 
that building, they can't get in there. Somebody in the agency 
has to stop her work and come down in order for them to enter 
the premises, even though these people have the credentials of 
the U.S. Capitol on them.
    That is what you have at one end, in a building that we do 
not think Al Qaeda is much looking for. At the other end, we 
have more sensible security in some other parts of the 
Government. How could this be? The reason it is this way, Mr. 
Chairman, is that security gets decided on the premises. No 
matter what they tell you, it is some GS-9 somewhere who sits 
with a committee and decides who will come into this agency or 
not, and the rest of it.
    And if it goes up to the Secretary and the Secretary says, 
that is fine with me, well then even staff from the Capitol 
can't get in. If it is someone who has a more even sense of 
security and what it means, maybe they will. But I can tell you 
this, Mr. Chairman: I have seen security in buildings that I 
think Al Qaeda would be far more interested in entering that do 
not have the security of the Transportation Department.
    We have had hearings ourselves on it. I would like very 
much for my subcommittee, for the Homeland Security Committee, 
and you, Mr. Chairman, to get together so that we can, in a 
concerted way, make the Federal Government protect Federal 
employees by having one standard that is minimal and then 
tailor it to other parts of the Government which may require 
more or less.
    Again, I very much appreciate the respect you show for the 
safety of Federal employees by holding such a prompt hearing 
here this afternoon.
    Mr. Lynch. Thank you. Certainly we are looking for best 
practices to be adopted.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. I thank you, Chairman Lynch, and thanks so 
much for holding this very important hearing.
    Last year we have witnessed a rise in violent rhetoric by 
extremist groups in America; therefore, we must consider not 
only those infrastructure improvements to protect Federal 
employees, to protection Federal employees from terrorism, but 
also the manner in which we may exercise justification of 
violence from public discourse.
    Less than 1 month ago, Andrew Joseph Stack intentionally 
crashed his small plane into a Federal building in Austin, TX 
that included offices of the Internal Revenue Service filled 
with Federal employees. This terrorist attack killed Vernon 
Hunter, a Federal employee who previously served two terms 
overseas in the Armed Forces.
    Incredibly, some political figures offered a tacit defense 
of that terrorist attack. One such individual was recorded as 
saying, ``I think if we had abolished the IRS back when I first 
advocated it, he wouldn't have had a target for his airplane.'' 
Previously, he told the Conservative Political Action 
Conference that he empathized with the terrorist who flew his 
plane into the Federal building in Austin. This defense of 
terrorism is remarkable, because under this logic the victims 
of terrorism bear the responsibility of the terrorist attack.
    This implicit figure's reprehensible defense of terrorism 
is consistent with the disturbing trend of violent, anti-
government extremism we have seen in our country all too often. 
According to the Southern Poverty Law Center, the slaughter 
engineered by Timothy McVeigh and Terry Nichols, men steeped in 
the conspiracy theories and white hot fury of the American 
radical right, marked the opening shot on a new kind of 
domestic political extremism, a revolutionary ideology whose 
practitioners do not hesitate to carry out attacks directed at 
entirely innocent victims, people selected essentially at 
random, to make a political point.
    Since 1995, there have been over 75 violent attacks by 
domestic terrorists like Timothy McVeigh and Andrew Joseph 
Stack, including the 1996 bombing at the Atlanta Olympics by 
anti-abortion fanatic Eric Rudolph and the 2009 murder of a 
guard at the Holocaust Museum by anti-Semite James von Brunn. 
It would be reprehensible enough for anyone to endorse violence 
generally, but even worse is endorsement of violence in 
response to non-violent policies with which one might disagree, 
such as the terrorist attack against the IRS to express tax 
grievances.
    Terrorism can never be condoned. Violence against Federal 
workers and installations is never acceptable. Those who, for 
cheap political pandering, find themselves justifying it most 
assuredly have the blood of its innocent victims, like Vernon 
Hunter, on their hands.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T7976.009

    Mr. Lynch. I thank the gentleman.
    The committee will now hear testimony from today's 
witnesses. It is the standard policy of this committee that all 
witnesses who are to offer testimony shall be sworn. Could I 
ask you to all stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Lynch. Let the record indicate that all the witnesses 
have each answered in the affirmative.
    What I will do is I will offer a brief introduction of each 
of our witnesses, and then we will afford each an opportunity 
to testify for 5 minutes.
    First of all, Mr. Mark Goldstein is the Director of 
Physical Infrastructure Issues at the U.S. Government 
Accountability Office. Mr. Goldstein is responsible for the 
Government Accountability Office work in the areas of 
Government property and telecommunications, and has held other 
public sector positions, serving as deputy director and chief 
of staff to the District of Columbia Financial Control Board, 
and as a senior staff member of the U.S. Senate Committee on 
Governmental Affairs. Mr. Goldstein is also an elected fellow 
of the National Academy of Public Administration.
    Mr. Steven Miller is Deputy Commissioner for Services and 
Enforcement, providing direction and oversight for all major 
decisions affecting the four taxpayer-focused Internal Revenue 
Service divisions: wage and investment, large and mid-sized 
business, all business, self-employed and tax-exempt and 
government entities. He is also responsible for the IRS 
Criminal Investigation Division, which investigates income tax 
evasion, the IRS Office of Professional Responsibility, which 
administers the laws governing the practice of tax 
professionals before the IRS, and the IRS whistleblower office, 
which receives information on tax cheating.
    Ms. Sue Armstrong was named the Acting Deputy Assistant 
Secretary in September 2009 of the Office of Infrastructure 
Protection, a division of the National Protection and Programs 
Directorate at the Department of Homeland Security. In this 
capacity, she supports the Assistant Secretary in leading the 
coordinated national effort to reduce the risk to the Nation's 
critical infrastructure and key resources posed by acts of 
terrorism, and increasing the Nation's preparedness and rapid 
recovery in the event of an attack, natural disaster, or other 
emergency.
    Mr. Gary W. Schenkel was appointed Director of the Federal 
Protective Service, a Division of the National Protection and 
Programs Directorate at the Department of Homeland Security, in 
March 2007. A retired Marine Corps lieutenant colonel, Schenkel 
has significant leadership and experience in a wide range of 
arenas, including organizational transformation efforts, 
security planning for public facilities, logistical planning 
and execution, and business administration.
    Mr. Guy Cottrell joined the Postal Service in 1987 as a 
letter carrier in New Orleans, LA. In 2008 Mr. Cottrell was 
asked to come to National Headquarters to lend his expertise 
and leadership to the Chief Postal Inspector's role as Chief 
Security Officer of the Postal Service as Inspector in Charge 
of the Secretary and Crime Prevention Communications Group. In 
2009, Mr. Cottrell was selected as Deputy Chief Inspector, 
Headquarters Operation, with oversight of all Postal Service 
national security programs.
    Welcome to all of our witnesses.
    Mr. Goldstein, you are now recognized for 5 minutes.
    Let me just explain that box in the middle of the table 
will show green while your time is proceeding. It will show 
yellow when it is time to wrap up, and then red when you should 
probably stop offering testimony.
    Mr. Goldstein.

       STATEMENTS OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; STEVEN 
   MILLER, DEPUTY COMMISSIONER FOR SERVICES AND ENFORCEMENT, 
    INTERNAL REVENUE SERVICE; SUE ARMSTRONG, ACTING DEPUTY 
 ASSISTANT SECRETARY, OFFICE OF INFRASTRUCTURE PROTECTION AND 
 GARY SCHENKEL, DIRECTOR, FEDERAL PROTECTIVE SERVICE, NATIONAL 
    PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF 
   HOMELAND SECURITY; AND GUY COTTRELL, DEPUTY CHIEF POSTAL 
           INSPECTOR, U.S. POSTAL INSPECTION SERVICE

                  STATEMENT OF MARK GOLDSTEIN

    Mr. Goldstein. Good afternoon, and thank you for the 
opportunity to discuss GAO's recent work on the Federal 
Protective Service and its efforts to protect Federal 
facilities. Recent events, including last month's attack on 
Internal Revenue Service offices in Texas and the January 2010 
shooting in the lobby of a Nevada Federal courthouse 
demonstrate the continued vulnerability of Federal facilities 
and the safety of Federal employees who occupy them. These 
events also highlight the continued challenges involved in 
protecting Federal real property and reiterate the importance 
of the Protective Service's efforts to protect the over 1 
million Government employees and members of the public who work 
in and visit the nearly 9,000 Federal facilities.
    This testimony is based on past GAO reports and testimonies 
and discusses challenges FPS faces in protecting Federal 
facilities and tenant agencies' perspectives of FPS's services. 
To perform this work, GAO visited a number of Federal 
facilities, surveyed tenant agencies, analyzed documents, 
interviewed officials from Federal agencies and contract guard 
companies.
    Over the past 5 years, we have reported that FPS faces a 
number of operational challenges protecting Federal facilities, 
including the following: First, FPS' ability to manage risk 
across Federal facilities and implement security 
countermeasures is limited. FPS assesses risk and recommends 
countermeasures to the General Services Administration and 
their tenant agencies; however, decisions to implement these 
countermeasures are frequently made by GSA and tenant agencies 
who have, at times, been unwilling to fund the countermeasures.
    Additionally, FPS takes a building-by-building approach to 
risk management, rather than taking a more comprehensive 
strategic approach in assessing risks among all buildings in 
GSA's inventory and recommending countermeasure priorities to 
GSA and tenant agencies.
    Second, FPS has experienced difficulty ensuring that it has 
a sufficient staff, and its inspector-based work force approach 
raises questions about protection of Federal facilities.
    While FPS is currently operating at its congressionally 
mandated staffing level of no fewer than 1,200 full-time 
employees, the agency has experienced difficulty determining 
its optimal staffing level to protect Federal facilities. 
Additionally, until recently FPS' staff was steadily declining, 
and as a result critical law enforcement services have been 
reduced or eliminated.
    Third, FPS does not fully ensure that its contract security 
guards have the training and certifications required to be 
deployed to a Federal facility. We found that FPS guards had 
not received adequate training to conduct their 
responsibilities. Specifically, some guards were not provided 
building-specific training, such as what actions to take during 
a building emergency or evacuation. This lack of training may 
have contributed to several incidents where guards neglected 
assigned responsibilities.
    Fourth, GSA has not been satisfied with FPS' performance, 
and some tenant agencies are unclear on FPS' role in protecting 
Federal facilities. According to GSA, FPS has not been 
responsive and timely in providing security assessments for new 
leases. About one-third of FPS' customers could not comment on 
FPS' level of communication on various topics, including 
security assessments, a response that suggests a division of 
roles and responsibilities between FPS and its customer is 
unclear. Some 82 percent did not use FPS for primary law 
enforcement response.
    FPS is taking steps to better protect Federal facilities. 
For example, FPS is developing a new risk assessment program 
and it has recently focused on improving oversight of its 
contract guard program.
    While GAO is not making any new recommendations in this 
testimony, we note that FPS has not completed many related 
corrective actions to our previous reports. We look forward to 
continued progress from DHS in the near future.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer questions you and the subcommittee may have. Thank 
you.
    [The prepared statement of Mr. Goldstein follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.010
    
    [GRAPHIC] [TIFF OMITTED] T7976.011
    
    [GRAPHIC] [TIFF OMITTED] T7976.012
    
    [GRAPHIC] [TIFF OMITTED] T7976.013
    
    [GRAPHIC] [TIFF OMITTED] T7976.014
    
    [GRAPHIC] [TIFF OMITTED] T7976.015
    
    [GRAPHIC] [TIFF OMITTED] T7976.016
    
    [GRAPHIC] [TIFF OMITTED] T7976.017
    
    [GRAPHIC] [TIFF OMITTED] T7976.018
    
    [GRAPHIC] [TIFF OMITTED] T7976.019
    
    [GRAPHIC] [TIFF OMITTED] T7976.020
    
    [GRAPHIC] [TIFF OMITTED] T7976.021
    
    [GRAPHIC] [TIFF OMITTED] T7976.022
    
    [GRAPHIC] [TIFF OMITTED] T7976.023
    
    [GRAPHIC] [TIFF OMITTED] T7976.024
    
    Mr. Lynch. Thank you, Mr. Goldstein.
    Mr. Miller, you are now recognized for 5 minutes for an 
opening statement.

                   STATEMENT OF STEVEN MILLER

    Mr. Miller. Thank you, Chairman Lynch, Ranking Member 
Chaffetz, and Congresswoman Norton. Thanks for the opportunity 
to testify on IRS workplace safety and security, particularly 
in the wake of the senseless attack last month on the IRS 
building in Austin, TX, that took the life of Vernon Hunter.
    We are dedicated to ensuring safety and the well-being of 
our 100,000 employees, no matter what their job is nor where 
they are located. The IRS work force is our most valuable 
resource, and no violent act is going to deter us from doing 
our jobs with dignity and respect for the American public.
    At the IRS security is managed by our Office of Physical 
Security and Emergency Preparedness, which manages at a 
national level, ensuring we have consistent implementation of 
security policies and procedures. For 2010, we will spend just 
over $100 million on security at IRS offices. There are over 
700 such facilities.
    As required under an Executive order, we utilize the 
Interagency Security Committee [ISC] standards, to determine 
what security to provide at a given facility. Depending upon 
the applicable security level under the standards, we will 
provide a variety of security tools, including highly visible 
guards and K-9s, explosive and intrusion detection systems.
    We also employ access control systems such as turnstiles, 
card key access, proximity cards, and lock and key control 
systems. Physical barriers include bollards, crash fencing, 
barriers, planters, and pop-up barriers. Screening measures 
focus on magnetometers, hand-held wands, and x-ray machines. We 
also have a detailed incident reporting system that is 
available and up and running 24/7, 365 days of the year that 
reports and tracks on these incidents.
    Mr. Chairman, the IRS employs a combination of strategies 
to plan, implement, and evaluate our security processes, and we 
promote security and awareness for all IRS employees. Our 
employees, in fact, are our partners in ensuring security, 
workplace safety and security.
    In this regard, we conduct periodic evacuation drills and 
shelter and place exercises which heighten employee emergency 
readiness. If you watched any of the coverage in Austin, you 
saw that among the things that went right down there--and some 
things did, in fact, go right, Mr. Chairman--our drills proved 
their worth. People did get out of the building on a timely 
basis and we lost only one life.
    We also issue recurring communications regarding security 
and safety to reinforce processes and to raise awareness, 
including annual security awareness fairs that are held across 
the country, and we maintain an IRS internet Web site that 
provides updated information on IRS physical security and 
emergency preparedness programs.
    From what I know today, Mr. Chairman, it is unlikely that 
there is anything we could have done to prevent the attack in 
Austin. Nonetheless, following that attack we took a series of 
immediate steps to enhance our security posture both in Austin 
and across the country while we assess our long-term security 
needs and whether they have changed over time. This increased 
vigilance includes 24/7 guard service in all 11 IRS Austin 
offices. There is also additional security at IRS facilities 
across the country, including additional guard service at this 
time.
    In conclusion, this area remains a top concern for the IRS, 
and we will be taking a hard look at what we can do in both the 
short and long term to ensure the safety of our folks. Nothing 
is more important to Treasury Secretary Geithner, Commissioner 
Shulman, nor myself.
    Thanks. I will be happy to take any questions.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.025
    
    [GRAPHIC] [TIFF OMITTED] T7976.026
    
    [GRAPHIC] [TIFF OMITTED] T7976.027
    
    Mr. Lynch. Thank you, Mr. Miller.
    Ms. Armstrong, you are now welcome to offer testimony for 5 
minutes.

                   STATEMENT OF SUE ARMSTRONG

    Ms. Armstrong. Thank you, Chairman Lynch, Ranking Member 
Chaffetz, and Congresswoman. It is a pleasure to appear before 
you today to discuss the work of the Interagency Security 
Committee. The Interagency Security Committee was created as a 
direct result of the Oklahoma City bombing of the Alfred P. 
Murrah Federal Building in 1995, the worst domestic-based 
terrorist attack in U.S. history.
    The mission of the Interagency Security Committee is to 
develop standards, policies, and best practices for enhancing 
the quality and effectiveness of physical security in and the 
protection of the over 300,000 non-military Federal facilities 
in the United States. The Department of Homeland Security's 
Assistant Secretary for Infrastructure Protection chairs the 
Interagency Security Committee, which is composed of senior 
executives from 45 member departments and agencies that 
contribute to the publication of innovative products to 
increase the security of Federal facilities, to protect Federal 
employees and the visiting public.
    For example, in March 2008 the Interagency Security 
Committee developed and published the facility security level 
determinations for Federal facilities, which defines criteria 
and processes facilities should use to determine their 
facilities security level. In June 2009, per recommendation 
from the Government Accountability Office, the Interagency 
Security Committee developed the use of physical security 
performance measures, the first Federal policy guidance on 
performance measures for physical security programs and testing 
procedures.
    In addition, the Interagency Security Committee is 
currently in the final stages of a comprehensive, multi-year 
effort to integrate 15 years of standards, lessons learned, and 
countermeasures for threats to federally owned and leased 
facilities. These documents will comprise the most 
comprehensive standards for Federal facilities created to date.
    The Assistant Secretary for Infrastructure Protection also 
oversees the work of the Office of Infrastructure Protection, 
which conducts vulnerability assessments on the Government 
facilities sector. These assessments identify security gaps and 
provide the foundation for risk-based implementation of 
protective programs. The Office of Infrastructure Protection 
also distributes the infrastructure protection report series, 
which provides protection information tailored to address 
issues faced by Federal buildings such as large Government 
office buildings and Federal courthouses, and my colleague from 
the Federal Protective Service will describe the department's 
role in protecting these facilities in greater detail.
    I appreciate the opportunity to address the committee on 
this important issue and I look forward to answering any 
questions you might have.
    Mr. Lynch. Thank you.
    Mr. Schenkel, you are welcome to offer testimony for 5 
minutes.

                   STATEMENT OF GARY SCHENKEL

    Mr. Schenkel. Thank you, Chairman Lynch, Ranking Member 
Chaffetz, Congresswoman Norton. It is a pleasure to appear 
before you today to discuss the actions of the Federal 
Protective Service as the Federal Protective Service undertakes 
to ensure the safety and security of Federal Government 
buildings.
    The Federal Protective Service performs fixed post access 
control screening functions, roving patrols at 9,000 General 
Services Administration owned and leased facilities. In fiscal 
year 2009 the Federal Protective Service responded to 35,812 
calls for service, including 1,242 protests and organized 
disturbances, made 1,646 arrests, conducted 1,115 criminal 
investigations, processed 272 weapons violations, and prevented 
the introduction of 661,724 prohibited items into Federal 
facilities, all with the significant assistance of our contract 
guards known as protective security officers.
    FPS was transferred at the start of the fiscal year to the 
National Protection and Programs Directorate, a component 
within DHS whose core mission is national resiliency that 
ranges from physical infrastructure protection to 
cybersecurity. While we are focused on ensuring a smooth 
transition of the organization, we believe this new structure 
will better position us within the department to receive the 
necessary support and meet our critical responsibilities moving 
forward.
    Primary among the Federal Protective Service's core mission 
requirements is the facility security assessment. The facility 
security assessment identifies existing and potential threats 
to Federal facilities and their occupants. The Federal 
Protective Service takes an all-hazards approach to facilities 
security assessment and evaluates the risk against possible 
mitigation measures built into our new risk assessment and 
management program. Those mitigating countermeasures are then 
presented to each facility's security committee, with 
recommendations on which countermeasures should be implemented, 
including the development of an occupant emergency plan.
    The Federal Protective Service systematically measures the 
effectiveness of our countermeasures through a variety of 
systematic progress, such as annual countermeasure 
effectiveness inventories, scheduled guard post and guard 
vendor inspections, and one of our most visible means, 
Operation Shield.
    Operation Shield conducts unannounced inspections to 
measure the effectiveness of contract guards in detecting the 
presence of unauthorized persons, potentially disruptive or 
dangerous activities in or around Federal facilities, and the 
guards' ability to prevent the introduction of prohibitive 
items or harmful substances into those facilities.
    Operation Shield also serves as a visible, proactive, and 
random measure that may be used as a deterrent to disrupt the 
planning of terrorist activities.
    In addition, the Federal Protective Service routinely 
provides security awareness training for employees which 
includes presentations on how to avoid becoming a victim of 
theft or violence, and we have also developed active shooter 
training, explaining what employees should do when faced with a 
violent situation and how to respond when law enforcement 
arrives.
    FPS has taken several actions and initiatives to address 
major areas identified by the Government Accountability Office, 
including human capital management, finance, guard contract 
oversight. FPS continues to develop additional information 
collection and analysis tools.
    FPS addressed the current GAO report regarding contract 
guard oversight and lapses in screening procedures by 
determining the cause of the lapses and recommending measures 
to prevent reoccurrence: increasing the frequency of guard 
posts and performance of protection security officers formerly 
referred to as contract security officers; requiring additional 
training in magnetometer and x-ray, including contract 
modification requiring the viewing of an FPS-produced training 
video that addresses screening for improvised explosive 
devices; ensuring that all protective security officers are 
compliant with certifications and qualifications, as stated in 
contract, by incorporating the certification system into our 
risk assessment management program or RAMP; developing and 
initiating a 16-hour magnetometer x-ray training program 
provided to protective security officers by Federal Protective 
Service inspectors titled the National Weapons Detection 
Program, which has begun in January 2010.
    As a result of the covert testing working group, FPS 
developed covert testing program which enhanced and 
complemented the ongoing efforts to improve oversight and 
improve the attentiveness and professionalism of the protective 
security officer. This current program further achieves FPS' 
strategic goals of effectively and efficiently securing Federal 
facilities and keeping their occupants safe.
    These are just some of the many ways the Federal Protective 
Service contributes to the safety and security of Federal 
buildings and their occupants.
    I look forward to the opportunity to answer any questions 
you may have, and I thank you and the committee for holding 
this important hearing.
    [The prepared statement of Ms. Armstrong and Mr. Schenkel 
follows:]

[GRAPHIC] [TIFF OMITTED] T7976.028

[GRAPHIC] [TIFF OMITTED] T7976.029

[GRAPHIC] [TIFF OMITTED] T7976.030

[GRAPHIC] [TIFF OMITTED] T7976.031

[GRAPHIC] [TIFF OMITTED] T7976.032

[GRAPHIC] [TIFF OMITTED] T7976.033

[GRAPHIC] [TIFF OMITTED] T7976.034

[GRAPHIC] [TIFF OMITTED] T7976.035

[GRAPHIC] [TIFF OMITTED] T7976.036

    Mr. Lynch. Thank you, Mr. Schenkel.
    Mr. Cottrell, welcome. You are now recognized for 5 minutes 
for an opening statement.

                   STATEMENT OF GUY COTTRELL

    Mr. Cottrell. Good afternoon, Chairman Lynch, Congressman 
Chaffetz, and Congresswoman Norton. My name is Guy Cottrell, 
Deputy Chief Inspector for the U.S. Postal Inspection Service. 
I am pleased to be here with you today to discuss safety and 
security practices at the Postal Service.
    While I am a postal inspector, please note that in today's 
testimony I am providing information that reflects security 
strategies across many different functions within the Postal 
Service.
    I will begin with the Inspection Service. Our mission is to 
protect the Postal Service and its employees, secure the 
Nation's mail system, and ensure public trust in the mail. 
Postal inspectors are Federal law enforcement officers who 
carry firearms, make arrests, and serve Federal search warrants 
and subpoenas. There are approximately 1,400 postal inspectors 
nationwide and abroad who enforce more than 200 Federal laws 
involving the use of the U.S. mail and the postal system. The 
Inspection Service maintains a security force staffed by 
roughly 650 uniformed postal police officers who are assigned 
to critical postal facilities across the country. The officers 
provide perimeter security, escort high-value mail shipments, 
and perform essential protective functions.
    The Postal Service has a number of ways we provide security 
for our employees and buildings. The Postal Service has a 
cross-functional program to comprehensively review a building's 
security. Program helps postmasters and installation heads 
achieve and maintain compliance with policies governing all 
aspects of security. The review includes comprehensive onsite 
observations, document reviews, and interviews of facility 
personnel. At the conclusion of each assessment, a plan is 
developed to address any issues identified in that review.
    Emphasizing the key role that each employee plays in each 
other's safety is one of our prime strategies. Special emphasis 
has been placed on developing employee communications safety 
materials. For example, each week at facilities nationwide, 
managers are required to give safety stand-up talks. Simple 
tips to employees such as reporting the condition of fences or 
public access to the workroom floor all contribute to employee 
safety.
    We will shortly begin an educational campaign aimed 
specifically at our letter carriers.
    A major component of the Postal Service's workplace 
violence prevention program is the district threat assessment 
team. Threat assessment teams use cross-functional team 
approaches to assess threatening situations and to develop risk 
abatement plans to minimize the potential risk of future 
violence.
    The Postal Service has established an agency-wide 
continuity program. The continuity program deals with issues 
that arise prior to, during, and after an event relative 
outstanding the employee's safety and welfare. This program is 
tested and exercised on an annual basis.
    Our plan calls for the notification of all employees of a 
facility that an event has occurred and where each employee is 
to report. We have a toll-free number for all Postal Service 
employees to use in the event of an emergency to receive 
information about facility closings and operating status.
    We are updating the computer program which will identify 
critical postal facilities in the path of approaching storms, 
provide floodplain modeling, and real-time storm updates, as 
well as estimate anticipated impacts on postal assets.
    The Inspection Service routinely works with other local and 
Federal law enforcement agencies. We also participate in 
training exercises. This ensures that postal employees, 
equipment, and procedures are ready to manage an emergency 
without interrupting operations.
    The Inspection Service conducts and evaluates training on 
procedures for emergency management personnel and other 
essential staff. This promotes preparedness, improves response 
capabilities, assures that all systems are appropriate, and 
determines the effectiveness of our command, control, and 
communications processes.
    Thank you for the opportunity to testify about some of the 
Postal Service's initiatives on safety and security. I would be 
pleased to answer any questions this subcommittee may have.
    [The prepared statement of Mr. Cottrell follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.037
    
    [GRAPHIC] [TIFF OMITTED] T7976.038
    
    [GRAPHIC] [TIFF OMITTED] T7976.039
    
    [GRAPHIC] [TIFF OMITTED] T7976.040
    
    Mr. Lynch. Thank you, Mr. Cottrell.
    I now yield myself 5 minutes.
    Director Goldstein, I had an opportunity to read your 
report from I think it was June 2009 where you did an 
assessment of the Federal Protective Service, and it was very, 
very helpful. I am not sure if it was a fair point in time to 
take a snapshot, however.
    I know that up until 2007 the Federal Protective Service 
was in the process of scaling down, downsizing. And then 
Congress, in 2008, said stop downsizing, start hiring. We came 
in with a minimum staffing requirement of, I think, 1,400. So 
then FPS had to reverse what they were doing and start hiring, 
which they were not prepared to do, and that is when you took 
the snapshot, so there is some difficulty here transitioning 
from one function to the other, one policy to the other.
    I am just wondering if you have had a more recent 
opportunity to do that analysis. I know you had folks, or 
perhaps you, yourself, went to various facilities and did this 
assessment. You talked to customers. You talked to a lot of 
people. I thought the report was fairly comprehensive in terms 
of the number of districts that you had reached out to, but is 
there a more recent assessment that you have made in terms of 
the readiness of the Federal Protective Service and its ability 
to meet Congress' more recent mandate?
    Mr. Goldstein. Mr. Chairman, we have done a number of 
approaches over the years. In 2008, we issued a report which 
was sort of our more recent baseline report which, again, to 
reveal a lot of the issues that were coming about as a result 
of the downsizing that the agency was undergoing.
    As you mentioned, since then a floor has been placed at 
1,250 individuals, about 950 of whom must be law enforcement 
officers.
    We have done additional work since that time. We issued a 
report on human capital planning at the Federal Protective 
Service. We did testimony, preliminary findings, which you are 
referring to from last summer in which we did a variety of 
things, including some penetration testing of Federal 
buildings, as well as looking at the contract guard program.
    We will shortly issue a final report looking at those 
issues to a number of committees of Congress that requested 
that work. So we are continuing to do work on the agency, and 
there are some additional reports that Congress has requested 
that we also do, including taking a look at the transition into 
NPPD, as well as taking a look at RAMP and whether RAMP will be 
a successful program in helping the agency.
    So we have continuing work on the way.
    Mr. Lynch. One of the problems that I have in assessing 
system-wide Federal security is that, for example, here on 
Capitol Hill, the legislative branch, we have the Capitol 
Police. We sort of have our own security system that we 
operate, as does the Federal court system. They sort of have 
the marshals inside the building, they have FPS outside. We 
have the Capitol Police. It is really sort of organic. DOD does 
their own thing, and so it is tough to take one measurement.
    Is there a study or review that you are undertaking now 
that would help me with that, or are you just responding as 
requested from these different committees?
    Mr. Goldstein. Most of our time up until now we have 
focused on the Federal Protective Service because of the GSA 
properties, but we have received recent requests from the House 
Homeland Security Committee to examine just what you are 
suggesting, which is more broadly taking a look at how security 
of Federal property across the entire spectrum is managed, who 
is responsible for it, how it interacts, how they coordinate, 
what kind of challenges they face. So we will be getting that 
work soon, sir.
    Mr. Lynch. All right. I guess what I am asking, Are there 
gaps in what we are requesting in order to get a good sense of 
what is going on and what the entire picture is here in the 
Federal Government?
    Mr. Goldstein. We have recently received a number of 
requests from House Homeland Security which I think fills a lot 
of those gaps, but I will be happy to take a look at what we do 
have in that we are supposed to work on and talk with your 
staff about some of those gaps. Yes, sir.
    Mr. Lynch. That would be helpful. Thank you. Thank you, Mr. 
Goldstein.
    The Chair now recognizes Mr. Chaffetz, our ranking member, 
for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Goldstein, if we could start, you used the word 
confusion when you are talking about the interaction with local 
law enforcement responding to situations in Federal buildings. 
Can you expand on that just a little bit more, because there 
are multiple jurisdictions that often would respond to some 
sort of incident, but explain to us a little bit more what you 
meant by confusion that was out there.
    Mr. Goldstein. Yes, sir. I would be happy to.
    Several years ago in 2008, when we began discussions with 
the Federal Protective Service on their relationships with 
local police, at that time they explained to us that as they 
were decreasing the size of FPS they would be relying more on 
local law enforcement and entering into memorandums of 
understanding with local law enforcement around the country to 
assist them in times of emergency.
    Over time, they realized that those MOUs probably would not 
be sustainable because many local law enforcement entities have 
enough of their own problems going on and would not wish to 
enter into such agreements, and that ultimately is what they 
found.
    What they told us at the time is that they were continuing, 
however, to develop relationships with local law enforcement 
and that they had sort of more informal and ad hoc 
relationships to help them in times of emergency, and that I 
suspect is true. We often see local law enforcement responding 
to the scene when situations occur.
    However, what has concerned us is we have done interviews 
in the course of our audit work in which we have spoken to 
precinct commanders, for instance, in a major metropolitan area 
literally within sight of level four Federal buildings, major 
level four buildings, who had no idea of when the last time 
they saw an FPS officer was, what kind of relationship existed 
with that building a block or two blocks away, and what their 
responsibility would be in an occurrence.
    Mr. Chaffetz. Let's do that. My guess is, my sense based on 
what the chairman was also asking, this is something we would 
like to explore further and learn a lot more about.
    Mr. Goldstein. Yes, sir. We would be happy to explore that 
with the staff.
    Mr. Chaffetz. That would be great.
    Mr. Goldstein. Yes, sir.
    Mr. Chaffetz. Can you help me, particularly Mr. Schenkel, 
understand, at least over the last 24 to 36 months, 2 to 3 
years, what is the trend and the number of people that are 
working and helping to secure?
    Mr. Schenkel. It has been very positive. When we got the 
relief as a result of the 2008 omnibus bill, we were able to 
hire an additional 150 FPS inspectors. In addition to that, we 
were able to revamp the training curriculum at the physical 
security training program, our in-house academy down at the 
Federal Law Enforcement Training Center.
    Mr. Chaffetz. Again, I am sorry to cut you off. I have only 
got just 5 minutes and I want to touch on two other subjects. 
If you could provide us on the committee some additional 
details as to where that staffing is going for both the 
physical infrastructure and some of the other issues, that 
would be great.
    And then if you could also, you mentioned the confiscation 
of 600,000-plus prohibited items?
    Mr. Schenkel. Yes, sir.
    Mr. Chaffetz. I would love to see what is on that list and 
if there is a detail as to how many knives or how many this or 
that.
    Mr. Chairman, I am concerned about this, not only in these 
facilities but also at airports, as well. I think we need to 
look at what are we going to do about it. Is there enough of a 
deterrent, if you will, to try to get or bring these items in? 
I am sure a lot of these happen accidentally, but we are not 
talking about oversized shampoos here, is my guess. My guess is 
we are talking about something that is a little bit more 
nefarious in its nature.
    I recognize the demand on the security personnel to have to 
be right all of the time, but I worry that these numbers are so 
huge. And I have heard similar things at the TSA, as well, so I 
would like to explore that and get additional information about 
that as we move forward, because that is just not acceptable to 
have so many prohibited items trying to be pushed and moved 
through the system. Obviously, there is room for error along 
the way.
    My time is concluding here, so I yield back the balance of 
my time, Mr. Chairman.
    Mr. Lynch. Thank you. The Chair now recognizes Ms. Eleanor 
Holmes Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Schenkel, you are perhaps, I am sure--I should not even 
say perhaps--aware of Mr. Goldstein's testimony some months 
back where the GAO used testers who were able to smuggle bomb 
parts into, I think it was perhaps as many as 10 Federal 
facilities, take them into a men's room, and, if necessary, 
assemble them. Can you tell this subcommittee today that has 
been corrected, since it is at least a year old, I think, that 
testimony was offered?
    Mr. Schenkel. Yes, ma'am. We have taken dramatic steps as a 
result of that. We have taken a number of steps as a result of 
the penetration test that the GAO conducted, to include we 
initiated a gap analysis to identify where those problems came 
from. We revamped the x-ray magnetometer training. We have 
initiated the national weapons detection program, which is an 
additional 16 hours of magnetometer and x-ray training for all 
of our protective security officers.
    We have also instituted the Covert Testing Working Group, 
which I mentioned in my initial testimony, where our individual 
criminal investigators, with a standardized uniform policy and 
a standardized uniform testing kit.
    Ms. Norton. Mr. Schenkel, we have a call into my office 
from someone who called himself a Federal Protective Services 
employee who said to us that the FPS plans to eliminate its 
HAZMAT program. Of course, these are the programs that monitor 
dangerous packages and provide training for such monitoring. Is 
the FPS planning to eliminate its HAZMAT program?
    Mr. Schenkel. No, ma'am, it is not.
    Ms. Norton. Is it still the case that we have a 
proliferation of guards who remain stationary and cannot leave 
their posts, even to assist a Federal Protective Service 
officer?
    Mr. Schenkel. It depends on the building and the 
responsibilities of that post.
    Ms. Norton. Who decides that, Mr. Schenkel?
    Mr. Schenkel. It is a combination of the facilities 
security committee that writes the post orders and the 
relationships----
    Ms. Norton. The facility security committee within each 
building?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. That is my problem, Mr. Schenkel. You know, if 
you are very highly qualified employee at HHS, you don't know a 
hill of beans about security. The delegation of so much of 
security to internal committees almost guarantees that what Mr. 
Goldstein found will happen.
    Mr. Schenkel, we know and there has been testimony that 
these guards not only can't leave their posts; they believe if 
they do leave their posts, even to engage in a chase on their 
own or assisting an FPS officer, they may face liability. Is 
that the case? Have they been told that if you leave your post, 
somebody is coming in with a gun, he runs, should the guard, 
not the FPS officer--you have a proliferation of guards, not 
FPS officers--should that guard run after that person who is 
trying to run away with a gun or with whatever he has in his 
hand?
    Mr. Schenkel. That is an identified training gap that we 
take on the responsibility for. We have to ensure that those 
guards are aware that they are not on their own personal 
liability when those----
    Ms. Norton. Mr. Chairman, what is so scary about testimony 
after testimony is this has been the case ever since guards 
have been used. This is not the case, Mr. Goldstein. I mean, 
this could have been corrected many years ago, but this policy 
of not leaving your post has been the policy all along, has it 
not, Mr. Goldstein?
    Mr. Goldstein. That is my understanding, ma'am.
    Ms. Norton. How is it that, with the Congress having said 
you should have no fewer than 1,200 officers, Mr. Goldstein 
reports that the FPS officers are on something called reduced 
hours? Why would they be on reduced hours?
    Mr. Schenkel. I am not aware of that, ma'am. If anything, 
they are on extended hours.
    Ms. Norton. Mr. Goldstein, you say in your testimony, you 
report reduced hours. That is where I got it from.
    Mr. Goldstein. Yes, ma'am. What we are referring to is 
during the period of time certainly that the Federal Protective 
Service was reducing its personnel, its officers, the law 
enforcement security officers and the remaining patrol 
officers, FPS made a decision that in most places there would 
not be weekend hours, there would not be hours that----
    Ms. Norton. Mr. Schenkel, if there are Federal employees in 
a building during weekend hours, is there Federal Protective 
Service there during those hours?
    Mr. Schenkel. It depends on the location, ma'am.
    Ms. Norton. And, again, who decides that, Mr. Schenkel?
    Mr. Schenkel. It is a combination of the needs of the 
facilities, if they are isolated facilities, and/or of the 
region of they are in a regional facility. There is 24/7 
covered here in----
    Ms. Norton. Mr. Schenkel, isn't it true that the internal 
committee is who basically is making these decisions, not your 
officers?
    Mr. Schenkel. In some cases, but not in all cases.
    Ms. Norton. I think this is a very serious proposition, Mr. 
Chairman, that security is in the hands of civilians who happen 
to be sitting on these committees and who, given the power, is 
going to use it as they see fit. Is that not the case, Mr. 
Goldstein?
    Mr. Goldstein. We have found a number of weaknesses with 
the building security committees, now called facilities 
security committees. They are made up of representatives from 
the tenant agencies. Usually the largest tenant agency in the 
individual building serves as the Chair.
    I have attended a number of these meetings over the years, 
just to see how they operate, and, while I think they are well 
intentioned, and they certainly should have an advisory role, 
we have been concerned that you have a very balkanized, 
fragmented approach to the security of GSA's portfolio when 
every building gets to make significant decisions about how 
security is managed, as opposed to FPS being allowed to do a 
portfolio-wide approach that is based on risk management 
principles.
    Ms. Norton. You know, as competent and dedicated as, for 
that matter, a Member of Congress may be who is my colleague, I 
don't want a Member of Congress deciding security for entry 
into this building.
    Mr. Chairman, may I just say finally in closing that the 
time has come, I think, for the committees who have been 
concerned about this to mandate that security be in the hands 
of trained security officials, and I would like very much to 
work with you, the ranking member, and to ask the members of 
the Homeland Security Committee and the Transportation and 
Infrastructure Committee, which also has some jurisdiction over 
FPS employees, to all get together. Maybe if we gang up on this 
problem we can get better security for Federal employees.
    Mr. Lynch. Thank you. I think that is a great suggestion 
about a joint effort, maybe joint hearings going forward. That 
is a great idea.
    The Chair now recognizes the distinguished gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Schenkel, you talked about the Federal Protective 
Service conducting sort of fixed-post and roving patrols of 
Federal facilities. Are there other things preventively that 
the Federal Government can or should do, the FPS in particular, 
to try to anticipate and/or prevent possible terrorist attacks?
    Mr. Schenkel. Sir, FPS takes an integrated approach that we 
actually start using international and national intelligence 
resources. We have access to that through our regional 
intelligence agents. They provide a threat picture, a threat 
analysis, if you will, of each facility. That is coupled with 
local law enforcement and we get the predictions and threat 
analysis also from them and take that approach even further.
    We employ certain countermeasures that could be cameras, 
intrusion detection systems. Obviously, our most visible 
countermeasure is the armed contract protective security 
officer, and certainly our most professional and most 
proficient is our armed Federal Protective Service law 
enforcement security officer.
    Mr. Connolly. You make reference to the MOUs with local law 
enforcement, but Mr. Goldstein, if I understood your testimony, 
you raised some concerns about the sustainability of those 
MOUs, given the already heavy burdens borne by local law 
enforcement. Are those MOUs, with all the good intentions of 
the world, something we can count on to help protect our 
Federal employees?
    Mr. Goldstein. It is my understanding that, because of the 
difficultly arising from gaining commitments out of local law 
enforcement, that there are few, if any, MOUs that are actually 
in place, and that I think Mr. Schenkel can tell you that 
generally what they strive to do is create relationships with 
local law enforcement in some of the major metropolitan cities 
where risks are higher. But, again, we found some concerns, 
even in places where they had done that, that, while they have 
tried to do that, the communication and interaction necessary 
to ensure collaboration wasn't always in place.
    Mr. Connolly. Mr. Schenkel, did you want to comment on 
that?
    Mr. Schenkel. Mr. Goldstein is correct. It is difficult to 
get an MOU with a metropolitan law enforcement agency. Having 
come from one myself, I understand that difficultly because of 
the liability issues. However, we have not had a single 
instance in FPS, at least during my tenure, that we have had 
any difficultly in coordinating or occupying a facility when 
there is a threat. We have normally developed a command and 
control situation where FPS will take command and control of 
the situation of a Federal facility when local law enforcement 
responds.
    Mr. Connolly. Are the rules of engagement fairly clear 
between the FPS and the local law enforcement agencies? I can 
think of some events right here in the national capital region 
where the lines of authority become an issue in terms of whose 
turf are you on and whose the primary responsibility for X, Y, 
and Z in terms of security. I won't name what, but it can 
sometimes be an issue. Is that an issue sometimes for the FPS?
    Mr. Schenkel. That will continue to be an issue wherever 
any law enforcement or two units operate together; however, in 
our case, because 80 percent of our facilities are leased 
facilities, there is an obligation by local law enforcement to 
respond just as a local fire department is required to respond, 
and we coordinate those activities either through Federal 
Protective Service officers on the ground or through our mega 
centers, our communication and dispatch centers that all 9,000 
of our buildings are tied in to.
    Mr. Connolly. Mr. Miller, in your testimony you indicated 
that there really was not much we could have done to prevent 
the attack in Austin, if I understood your testimony.
    Mr. Miller. I believe that is right, sir.
    Mr. Connolly. I assume you meant by that physically once 
someone decided to take his airplane and flying into the 
building, there just wasn't much we could do.
    Mr. Miller. Yes, sir.
    Mr. Connolly. You were talking about the physical ability 
to restrain that individual once he got in his airplane?
    Mr. Miller. That is what I was speaking of, sir.
    Mr. Connolly. But are there other things--you heard me in 
my opening statement. One of the concerns I have is that there 
are some people in the media and even in political life who 
have, presumably unwittingly, nonetheless empowered some people 
who might be on the edge emotionally anyhow, to think it is OK, 
if it is a Federal agency you don't like, to fly an airplane 
into a building. Are there things outside of the physical 
challenge once someone decides to do something we can or should 
be doing or anticipating to try to ameliorate or mitigate any 
possibility of such attacks?
    Mr. Miller. I would think, Congressman, that there are 
others at this table and otherwise that would be better. 
Obviously, there is tracking of intelligence and Internet catch 
and all of that. That sort of isn't within the IRS' purview, 
and I think we would look to other experts for that sort of 
explanation and help.
    Mr. Connolly. I know my time is up, Mr. Chairman. If I 
might ask if there is anyone else at the table who wanted to 
respond to that.
    [No response.]
    Mr. Lynch. No takers.
    Mr. Connolly. Thank you.
    Mr. Lynch. All right. Thank you, Mr. Connolly.
    First of all, Mr. Miller, my condolences for the loss of 
life.
    Mr. Miller. Thank you, sir.
    Mr. Lynch. I know Vernon Hunter was a Vietnam veteran, two 
tours of duty, very close to retirement, so there is a human 
dimension here that sometimes gets lost in all of this.
    Let me ask you, Ms. Armstrong and Mr. Miller, after the 
incident in Austin, as Mr. Connolly pointed out and you 
confirmed, there was a certain unforseeability, this was so 
bizarre, I understand the evacuation and the post-attack 
procedures seemingly went very well. Were there any changes 
that you adopted, Mr. Miller, in terms of the way you are doing 
business at the IRS within some of your facilities? Was there a 
reassessment that you did following that event?
    And, Ms. Armstrong, I understand that the Interagency 
Security part of this, its function is to make sure best 
practices are adopted across agencies.
    Mr. Miller, is there anything that you did or the IRS did 
in response?
    And Ms. Armstrong, was any of that translated across agency 
lines?
    Mr. Miller. Sir, I can speak to the IRS, Mr. Chairman. What 
we did almost immediately was increase the amount of security 
at all of our facilities until we were certain, during the 
weekend and a little later than that, because this happened 
late in the week on a Thursday, until we were sure that this 
was not a series of, the first of a series.
    We then have continued additional guard service and 
additional security awareness and security at all the 
facilities, especially in Austin, but across the country, as 
well.
    We are in the process of doing what you are suggesting, 
which is reassessing exactly where we are today, what is the 
general threat level with respect to IRS facilities, and do we 
have in place the processes and security we need to ensure the 
safety of our folks.
    Ms. Armstrong. Yes, sir. In terms of the actual incident in 
Austin, itself, as the Office of Infrastructure Protection we 
monitor all such incidents as they relate to Government 
facilities or a whole host of different types of issues that 
impact critical infrastructure, so we monitored the incident, 
reported again to the point of is this a series of attacks, up 
to the national operations center and our Secretary.
    In terms of the Interagency Security Committee, this 
incident and other recent incidents are certainly part of the 
ongoing dialog that the committee is having about how it gets 
to the final stages of a couple of years of work to put 
together a ground-breaking compendium of standards for physical 
security at Federal buildings.
    The Congresswoman mentioned the facilities security 
committee. That is actually the third piece of our work, the 
first two pieces being the physical security criteria for 
Federal buildings and then a design basis threat piece so that 
31 different types of threat can be considered as a facility 
considers countermeasures.
    What we are hoping to do with the facilities security 
committee is take 15 years worth of lessons learned on what is 
not working in terms of Federal Security Committee composition, 
training, and guidance, and have the Federal Protective Service 
and GSA co-chair the working group that looks at the whole 
issue of Federal Security Committees, how they work, what 
guidance they need, what training they need, and who needs to 
be on them to make effective security decisions at Federal 
buildings.
    Mr. Lynch. OK. Let me just followup on that. I understand 
that the Interagency Security Committee is sort of a 
facilitator across agency lines, and I know it is responsible 
for coordinating security in all the non-DOD executive branch 
agencies, which is fairly expansive. You are talking millions 
of employees.
    Ms. Armstrong. Yes, sir.
    Mr. Lynch. And I also understand that you have one 
employee, one staff person, the ISC, that handles all of that. 
Now, at one point there was only one employee to do all of 
that. Have you increased staffing to get this thing done in 
light of the threat that is out there?
    Ms. Armstrong. Yes, sir. As you know, the Interagency 
Security Committee chair came to the Office of Infrastructure 
Protection in fiscal year 2008, and since then we have been 
resourcing it out of hide, if you will. We do have one Federal 
employee and a team of contractors who do the staff work of the 
ISC. But the ISC is a 45-member interagency body, and other 
Federal agencies provide subject matter expertise, personnel, 
brain power, and do the actual work of the committee. So we 
coordinate, but the whole interagency contributes in terms of 
resources.
    Mr. Lynch. OK. I am just interested in seeing that properly 
resources. If there is a weak link in this chain, it is 
probably that, so it is tough enough with so many players here. 
You definitely need somebody coordinating all that. For now we 
will leave it to the agencies to properly resource that, but we 
will keep an eye on it.
    I now recognize the gentleman from Utah, Mr. Chaffetz, for 
5 minutes.
    Mr. Chaffetz. Thank you.
    First, Mr. Chairman, if I could, with all due respect to 
Mr. Connolly, I could use some help with the clarification in 
both the opening statement and in the questioning as to the 
source of where potentially some of this terrorism and acts of 
violence are coming from.
    Mr. Lynch. You are not allowed to ask other Members 
questions. We brought in five witnesses here, and you can ask 
them. I guess that is why we have the witnesses here. So if you 
want to sort of probe that with the witnesses, because I think 
Mr. Connolly was asking folks or citing that. So if you want to 
ask the witnesses about that, that would certainly be relevant.
    Mr. Chaffetz. I appreciate it.
    Mr. Lynch. And I understand the sensitivity here, and I 
have tried not to impugn or imply any particular source. I am 
actually working from the side of protecting the Federal 
employees within those facilities, and not working from the 
point of the folks that might be motivated to do something like 
this.
    Mr. Chaffetz. Coming into this hearing, that wasn't my 
intention, either. It is just the idea of the suggestion that 
there was any Member of this body that would suggest or condone 
or even encourage somebody, I just wanted to make sure that he 
had that opportunity to help clarify. But we will move on here.
    There was a suggestion in David Wright, who is the 
President of the Federal Protective Service Union, in his 
comments that the Federal Protective Service having been 
``slashed to the point of ineffectiveness.'' I wanted to give 
the FPS an opportunity to kind of respond to that assertion 
that it had been slashed to the point of ineffectiveness. Would 
you care to comment?
    Mr. Schenkel. I can't agree entirely with President Wright 
in regards to that. What I can say is that we had to refocus 
our protection mission, based on the available resources that 
we had. We got involved in some things through mission creep, 
as I would call it, that got us distracted from the facilities 
that we were charged to protect. Consequently, we had to revamp 
our strategic plan and focus on the protection of the 
facilities. It is a challenge. It is a constant maneuvering of 
resources that we have that are available. As the threat 
changes, we have to keep maneuvering those limited resources 
where possible.
    Mr. Chaffetz. Thanks. I yield back the balance of my time.
    Mr. Lynch. Thank you.
    The Chair recognizes Ms. Eleanor Holmes Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Armstrong, as you can see, the Interagency Security 
Committee bugs me. And I do want to make it clear that when Mr. 
Schenkel talks about the gap--and I think he is candid in 
reporting a gap--the gap should be labeled for what it is. It 
is a gap between burdensome and unnecessary security on the one 
hand and lax security on the other.
    The example that I offered before at the Department of 
Transportation--and let me tell you how this plays out. This is 
a fairly new facility. It is located along N Street Southeast. 
There are 20 million tourists and visitors who come to the 
District of Columbia. If you go along that street, we are just 
filling it out with the kinds of shops that you might expect 
and will be there over the years.
    Imagine yourself as a visitor to our city and you say, 
well, there is a Federal building, Johnny. We can go to the 
bathroom there. And I am telling you that because an 
interagency committee has some kind of hubris of self-
importance, that taxpayer who paid for that building cannot 
enter that building because somebody has decided--and we 
understand that the center of authority is in this committee--
that a taxpayer can't get into that building unless the 
taxpayer knows a staff person who can come down and give the OK 
for the person to enter the building. Do you consider that 
appropriate, that kind of entry requirement for ordinary, law-
abiding citizens to be appropriate?
    Ms. Armstrong. Well, I think the key there is what is the 
agency, what is the----
    Ms. Norton. I am giving you an example and I would like you 
to answer my example, not depending on the agency. I have given 
you a low security agency and I am asking you whether you 
consider it appropriate that a taxpayer with a child, or 
without a child, cannot get into that building to use the 
facility or, for that matter, to go to the cafeteria. Do you 
consider that appropriate?
    Ms. Armstrong. Well, I think it is appropriate to have 
security practices and procedures in place that would prevent 
the unauthorized entry of an unauthorized person into a Federal 
facility.
    Ms. Norton. And you don't consider the taxpayer I am 
talking about an unauthorized person, would you?
    Ms. Armstrong. Well, I don't know the actual person that 
you are talking about.
    Ms. Norton. Mr. Chairman, this is what I mean. I have given 
you a hypothetical. You refuse to give me an answer to my 
hypothetical. Ordinary citizen with a child, should that 
ordinary citizen be able to enter the Department of 
Transportation building in order for the child to use the 
facilities? Yes or no?
    Ms. Armstrong. I would have to say no, ma'am.
    Ms. Norton. For what reason, Ms. Armstrong?
    Ms. Armstrong. For purposes of protecting the employees at 
that building.
    Ms. Norton. In which way would this taxpayer be considered 
a risk to the employees in that building?
    Ms. Armstrong. Well, if he were the ex-husband of a woman 
that he had abused and is using a ruse to try to get past 
security to get to her, then security----
    Ms. Norton. You see, Mr. Chairman, what I mean. Meanwhile, 
if this is the way you do security, Ms. Armstrong, I don't want 
you in charge of my security. I want somebody who, as Mr. 
Goldstein said, has taken a risk assessment and has decided is 
there a risk that a parent entering the building poses, a 
security threat, or is there a more serious risk.
    Let me ask you, Mr. Schenkel, particularly in light of that 
answer, according to Mr. Goldstein's testimony--and I am 
reading--in 2008, FPS transitioned to an inspector--understand 
FPS, oldest Federal police force in the United States--the FPS 
transitioned to an inspector-based work force--this is page 6--
eliminating the police position, and is relying primarily on 
FPS inspectors for both law enforcement and physical security 
activities, which has hampered its ability to protect Federal 
officials. In essence, this testimony from Mr. Goldstein says 
that the Federal Protective Service is no longer a police 
force, it is an inspector-based work force.
    Since 2008, have you right-sided the agency so that the 
Federal Protective Service is today a police force and not an 
inspector-based force?
    Mr. Schenkel. The inspectors are police officers.
    Ms. Norton. I understand exactly that. These are people who 
were patrolling before, who were looking for people like the 
bomb makers that Mr. Goldstein said, who were looking to 
prevent criminal activity. They were switched to a new position 
called an inspector position. My question to you is: have you 
switched any of these inspectors back to patrolling buildings 
and to being police officers, as they always were before this 
transition?
    Mr. Schenkel. In some regions the inspectors do take the 
active patrol.
    Ms. Norton. What is your intent? Is your intent that the 
Federal Protective Service do engage in these patrols and not 
be an inspector-oriented-based work force as it had become?
    Mr. Schenkel. It is a matter of resources, ma'am. We had to 
get the facilities----
    Ms. Norton. If it is a matter of resources, why aren't the 
resources put on the police part of the protective service as 
opposed to the inspector part of the protective service?
    Mr. Schenkel. Because 80 percent of our facilities are 
protected by local and State law enforcement agencies, and with 
the resources that we have available----
    Ms. Norton. Mr. Chairman, my time is up. That is just not 
true. Local police forces do not protect Federal facilities. I 
just want to say for the record, Mr. Schenkel, that is untrue. 
The D.C. Police Department will not, in fact, protect Federal--
and there has already been testimony here they all think they 
have liability. Let me tell you what else, Mr. Schenkel: they 
all have a lot to do protecting their own cities. So for you to 
sit here and say we depend upon the D.C. police force and the 
Fairfax police force to protect Federal facilities is quite an 
outrage.
    Thank you, Mr. Chairman.
    Mr. Lynch. I thank you.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman. I know we 
want to get on to some other witnesses, as well. I just have 
one question.
    Ms. Armstrong, what does the Interagency Security Committee 
do to preempt or prevent violence against Federal facilities? 
Is it all on the physical structural side of hardening 
facilities, or do we get into other kinds of strategies in the 
preemption and prevention?
    Ms. Armstrong. We do get into the prevention area and we, 
in fact, have a working group on workplace violence working on 
issuing a compendium of best practices.
    Mr. Connolly. And presumably you are also plugged into some 
kind of stream of intelligence in terms of possible known 
threats or purported threats?
    Ms. Armstrong. Yes, sir. We use the Homeland Infrastructure 
Threat and Risk Analysis Center [HITRAC], which is part of the 
Office of Infrastructure Protection and the Office of 
Intelligence and Analysis at DHS, to help with the design basis 
threat that we will be issuing soon.
    Mr. Connolly. Thank you.
    Ms. Armstrong. Yes, sir.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    I yield myself 5 minutes.
    Mr. Cottrell, this sort of gets to Ms. Eleanor Holmes 
Norton's issue. You have a situation where, with the Postal 
Service, the public is actually invited into the building, not 
for the bulk mail facilities but the regular post offices, even 
the large GMF facility at South Station. They have a big 
section there where they invite the public in, obviously. How 
do you handle that balance between maintaining security as you 
need to, taking in packages from the public, as well, and yet 
maintaining the security for your personnel?
    Mr. Cottrell. It is a challenge, Mr. Chairman, but to 
balance being a retail facility as well as a Government 
facility and protect employees, we rely on training--training 
our supervisors and employees how to recognize and react to 
potentially violent encounters.
    We don't experience many breaches of security into the back 
rooms of facilities, but, as you stated, we do have several, 
well, we have thousands of retail facilities where sometimes 
unhappy customers can come in and attack or assault our 
employees. So it is really an awareness training of what to 
watch for and making sure our employees know who to contact and 
the steps to take if such an incident does occur to try to de-
escalate or report an incident.
    Mr. Lynch. I also know that there is, at some level, some 
coordination between the U.S. Postal Service and DHS. I was 
involved with the installation of some of the new technology 
that was put in place after the anthrax attacks here at the 
Brentwood facility and elsewhere, I think in New York, but how 
has that coordination worked out? Was that a one-time event or 
is that something that is ongoing?
    Mr. Cottrell. It is ongoing. We participate in the ISC, the 
Interagency Security Committee, and, truthfully, the anthrax 
attacks, really. The Postal Service learned a lot of valuable 
lessons about liaisoning with other Federal, State, and local 
agencies so that folks know what to do. That is part of our 
annual training is to work and liaison with these other 
agencies.
    Mr. Lynch. OK. You know, we have one more panel to come up 
here. I think all of you know we didn't have much time to put 
this hearing together. I appreciate the thoroughness of your 
written testimony.
    I will leave the record open so if some Members who were in 
another hearing, I know Budget Committee is meeting right now, 
as well, and some of our Members are on that committee. But I 
want to thank you for your willingness to come before Congress 
and to offer your suggestions to possible solutions. We will be 
working on this going forward, probably in coordination with 
the Committee on Homeland Security, Mr. Thompson, so you may 
receive some requests in writing for testimony, further 
testimony, and to answer further questions.
    Thank you for your testimony here today, and I wish you a 
good day.
    All right. Panel two. First of all, let me welcome you to 
this hearing. I appreciate your willingness to come before this 
subcommittee with your testimony. What I will do is I will read 
a brief introduction of our witnesses, and then we will open it 
up for questions after you are sworn.
    Colleen Kelley is the president of the National Treasury 
Employees Union, the Nation's largest independent Federal 
sector Union, representing employees in 31 different Government 
agencies. Ms. Kelley, a former IRS revenue agent, was first 
elected to the Union's top post in August 1999.
    Jon Adler has been the national president of the Federal 
Law Enforcement Officers Association since November 2008. He 
began his career in law enforcement in 1991 and has served as 
Federal criminal investigator since 1994. His experience 
includes working a wide variety of investigations and enforcing 
most of the Federal criminal statutes.
    Mr. David Wright is the president of the American 
Federation of Government Employees, Local 918, the National 
Federal Protective Service Union. Mr. Wright is also a veteran 
Federal Protective Service Officer and Inspector for over 20 
years.
    It is the custom within this committee to ask all those who 
are to offer testimony to be sworn, so may I please ask you to 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record reflect that each of the 
witnesses has answered in the affirmative.
    Ms. Kelley, you are now recognized for 5 minutes for an 
opening statement.

  STATEMENTS OF COLLEEN KELLEY, NATIONAL PRESIDENT, NATIONAL 
   TREASURY EMPLOYEES UNION; JON ADLER, NATIONAL PRESIDENT, 
FEDERAL LAW ENFORCEMENT OFFICERS ASSOCIATION; AND DAVID WRIGHT, 
    PRESIDENT, LOCAL 918, AMERICAN FEDERATION OF GOVERNMENT 
                           EMPLOYEES

                  STATEMENT OF COLLEEN KELLEY

    Ms. Kelley. Thank you, Mr. Chairman, Ranking Member 
Chaffetz, and members of the committee. I am very pleased to be 
here on behalf of NTEU to discuss Federal employee workplace 
safety and security issues.
    As you know, on Thursday, February 18th, in what 
authorities believe was an intentional suicide attack, a pilot 
with a perceived grudge against the Government, in general, and 
the IRS, in particular, crashed his small plane into a building 
housing almost 200 IRS employees and NTEU members in Austin, 
TX.
    As has been noted, the attack took the life of Vernon 
Hunter, a 27-year IRS employee, a beloved husband, father, 
grandfather, and U.S. veteran. Vernon's wife, Valerie, works 
for the IRS, as well, and was also in the Echelon building when 
the plane hit. They both have been long-time NTEU members, and 
I share in the sorrow that this tragic loss has caused for 
their family and for so many others.
    I know many of you saw pictures on TV of the Austin IRS 
building engulfed in flames and probably wondered, as I did, 
how so many people were able to escape, but I am guessing that 
many thought about it for a brief time and understandably moved 
on to other things. I think hearing what went on immediately 
after the attack may help to increase the urgency of preventing 
this from happening again and ensuring that employees know what 
to do if it does.
    Treasury Secretary Geithner, IRS Commissioner Shulman, and 
I visited with the affected employees shortly after the attack 
and we heard incredible stories of terror and heroism that I 
would like to share with you.
    Upon impact, the burning fuel from the plane quickly filled 
the air with black smoke, making it impossible for many in the 
building to see anything, yet employees near exits delayed 
their own escape so others could follow their voices and find 
their way out. Employees who were outside the building went 
back in to help evacuate disabled employees who worked in the 
mail room. An IRS employee with a disability told her co-worker 
to leave her on the fourth floor because she could not walk 
down the stairs. He insisted she climb on his back, saying he 
had carried soldiers that way when he was in the service. He 
carried her on his back down the four flights to safety.
    Andrew Jackson and Morgan Johnson and four others were 
trapped on the second floor of the building, unable to get to 
the exit because of the smoke, flames, heat, and debris. They 
crawled on their hands and knees, breathing through clothing 
they had dampened with water, looking for a way out. Morgan 
shouted through a broken window and got the attention of Robin 
DeHaven, who was an employee of a glass company who was 
miraculously passing by with a 20-foot ladder on his truck.
    Robin, who was later dubbed Robin Hood by those that he 
rescued, stopped and he tried to reach the trapped employees, 
but the ladder could not reach to the window that had already 
been broken. Andrew remembered a 4-foot metal crowbar that was 
used for property seizures that was kept in the office. After a 
few attempts and several gashes to his hand and his wrist, 
Andrew and the others succeeded in breaking a window through 
which they could get out and reach the ladder, clearing the 
glass and helping each other down Robin DeHaven's ladder to 
safety.
    Mr. Chairman, I have included in my written testimony 
several detailed suggestions on improving safety and security 
for the Federal work force, including increased staffing and 
training for the Federal Protective Service. NTEU is also 
requesting that the IRS undertake and include employees in a 
comprehensive review of safety and security measures at all of 
its facilities around the country, many of which have no guard 
or armed presence at all. And we want to make sure that IRS 
employees have access to any information on taxpayers who may 
pose a threat to their safety as they perform their duties.
    But I would also like to urge this committee to take the 
lead not just on the issue of physical safety, but on the issue 
of holding public officials to a responsible level of discourse 
when it comes to the Federal Government and those who work for 
it. I have to say that I was shocked to hear comments from 
elected officials that expressed empathy for the man 
responsible for the horrific attack in Austin that took the 
life of a wonderful patriotic American who was carrying out the 
laws that this Congress writes.
    I am not asking for limitations on free speech rights, but 
I am asking for members of this committee and this Congress to 
forcefully denounce this kind of irresponsible rhetoric before 
it contributes to more misguided violence against Federal 
workers who are just doing their jobs.
    Mr. Chairman, I know that you and other members of this 
committee have spoken out forcefully on this issue, and I very 
much appreciate that. I also appreciate the strong statement of 
support from President Obama. And NTEU appreciates the fact 
that the House passed a bipartisan resolution authored by 
Congressman Doggett of Texas supported by members of this 
subcommittee with you, Mr. Chairman, as an original coauthor, 
condemning the attack in Austin. I thank you for that and I 
thank you for holding this important hearing. I hope it will 
encourage others to join in these efforts, and I would be happy 
to answer any questions.
    [The prepared statement of Ms. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.041
    
    [GRAPHIC] [TIFF OMITTED] T7976.042
    
    [GRAPHIC] [TIFF OMITTED] T7976.043
    
    [GRAPHIC] [TIFF OMITTED] T7976.044
    
    [GRAPHIC] [TIFF OMITTED] T7976.045
    
    [GRAPHIC] [TIFF OMITTED] T7976.046
    
    [GRAPHIC] [TIFF OMITTED] T7976.047
    
    Mr. Lynch. Thank you.
    Mr. Adler, you are now recognized for 5 minutes.

                     STATEMENT OF JON ADLER

    Mr. Adler. Thank you. Chairman Lynch, Ranking Member 
Chaffetz, and distinguished members of the committee, on behalf 
of the 26,000 membership of the Federal Law Enforcement 
Officers Association, I thank you for the opportunity to appear 
before you today.
    My name is Jon Adler and I am the National President of 
FLEOA. I am proud to represent Federal law enforcement officers 
from over 65 different agencies, including FPS, IRS criminal 
investigation, Treasury IG, Postal Inspection, and Secret 
Service. My statement includes specific comments from members 
from these agencies, as well as others.
    In the course of my 19 years in Federal law enforcement, I 
served as a first responder at Ground Zero on September 11, 
2001, and in New Orleans after Hurricane Katrina hit. From 
these two catastrophic events, I witnessed the devastation 
terrorism and acts of nature can have on the safety and 
security in a Government workplace. From these horrific events, 
there was a lot to be learned. It is our collective 
responsibility to apply this knowledge and not let it rest like 
an old gun trapped in an unworn holster.
    We can learn a lot from the feedback I received from 
seasoned law enforcement officers employed by a diverse group 
of agencies. Their comments reflect both the employee and 
protective perspective. Here are some examples: Regarding GSA, 
GSA had a program they called first impressions where they 
attempted to blend security screening into the aesthetics of 
the building. This pushed back the security screening from the 
immediate area of the entry to the facility into the building 
lobby. The Israeli security procedure is to identify the threat 
before it reaches and enters the protected facility. All new 
security screening stations need to be constructed and existing 
ones retrofitted with the protection of the security officers 
in mind.
    Regarding IRS, IRS employees work in GSA-owned or leased 
space which FPS has statutory authority to protect, which 
includes uniformed law enforcement response and criminal 
investigations. IRS agencies do not pass any information along 
to FPS regarding persons who have threatened an IRS facility or 
employee. Their withholding of threat information puts the 
facilities, their employees, and any citizen in the facility at 
risk. IRS has not prepared their special agents for responding 
to situations such as what happened in Vegas or Austin.
    Frankly, with all the training IRS employees receive, it is 
shameful that IRS has not implemented a workable plan to 
respond to incidents like the one in Austin. I believe it is 
time for IRS criminal investigation to create a program or 
training course that addresses terrorist type attacks against 
IRS. The fact that IRS is unwilling to refer to violent tax 
evaders as tax protesters shows their lack of commitment to 
workplace threats.
    Regarding the Postal Service, I watched automatic lawn 
sprinkling equipment installed while denied request for less 
than $5,000 worth of security improvements in the same 
facility. I have witnessed longstanding security specifications 
minimized or outright eliminated for perimeter facing, 
investigative observation, robbery countermeasures, vehicle 
breaking countermeasures, etc., where, if the Inspection 
Service is even consulted, the decision is pre-ordained to 
lower or eliminate the existing standards. There are post 
offices in desperate need of bullet-resistant screen lines but 
go unfunded due to their cost.
    Regarding courthouse and probation, there are six judicial 
districts where the chief judges will not allow qualified 
probation and pretrial officers to be armed and defend 
themselves in the work force. It is mind boggling that we have 
officers go through 40 hours of firearms training and not be 
allowed to carry a firearm. It is not uncommon for offenders 
and their associates to loiter outside public buildings before 
or after meetings or interviews with officers, and this poses a 
risk for the officers, the workers, and the community.
    Several Federal courthouses have no security presence after 
hours on weekends or holidays. Employees' only protection is 
their access card and their PIN. It is a total joke. The bottom 
line is, without a security presence the officers and their 
employees are vulnerable to an attack.
    FLEOA member recommendations include: FPS is available to 
assist in GSA-owned and leased space with occupant emergency 
planning and exercises and active planning and awareness 
training, which I believe Director Schenkel hit on.
    The Secret Service uses a continuity of operations plan in 
all of its offices to address emergency response, evacuation 
routes, relocation, and contact information. Each office is 
equipped with emergency equipment, and every employee is given 
a co-op card with pertinent emergency information. Other 
agencies may benefit from adopting all or some of this system. 
Each agency should run unannounced security tests aimed at 
improving layers of protection and not punishing those who 
don't succeed.
    Set up an interagency task force with experienced law 
enforcement officers to address building and equipment 
vulnerabilities, threat assessment, and response protocols, 
threat information sharing, and human capital needs.
    Agency heads should provide Congress with a list of their 
security needs to ensure funding for appropriate staffing 
levels, training, and functional security equipment. In turn, 
each agency head must commit to spending funds for specific 
security needs, with the expectation of enhanced security 
measures, the general Government employee audience must embrace 
the implementation of new technology such as the advanced 
imaging technology now being used by TSA.
    In closing, I will offer that the best playbook or 
operational plan accomplishes nothing when it is layered with 
dust. All agencies should practice emergency response protocols 
and periodically test their defense systems. With the 
appropriate level of funding, agency staffing, equipment, and 
training needs will be met. It is imperative that the agency 
have the means to take proactive measures to improve workplace 
security and emergency response capabilities.
    We all need to claim ownership of this challenge, and we 
all need to commit to its success.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Adler follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.048
    
    [GRAPHIC] [TIFF OMITTED] T7976.049
    
    [GRAPHIC] [TIFF OMITTED] T7976.050
    
    [GRAPHIC] [TIFF OMITTED] T7976.051
    
    Mr. Lynch. Thank you, Mr. Adler.
    Mr. Wright, you are now recognized for 5 minutes.

                   STATEMENT OF DAVID WRIGHT

    Mr. Wright. Mr. Chairman, Ranking Member Chaffetz, and 
members of the subcommittee, Mr. Chairman, as president of the 
FPS Union, it has never given me pleasure to bring attention to 
this crisis. Indeed, I have dedicated the last 24 years of my 
life trying to make this agency the best law enforcement 
Homeland Security agency in the country, but when our members 
see every day how serious the problems are, I am obligated to 
speak out.
    Over the past 2 years, the Federal Protective Service has 
been investigated, analyzed, and studied. The GAO has performed 
six studies since 2008 addressing different aspects of FPS, and 
all concluded that the agency is rife with serious problems, 
each of which is impairing the ability of FPS to perform its 
critical homeland security mission. Taken together, the GAO 
analyses paint a portrait of an essentially dysfunctional 
agency.
    The mission of the FPS is to protect approximately 9,000 
high, medium and low-security Federal buildings and properties 
around the country. These buildings include everything from 
Social Security offices, Federal courthouses, Federal 
congressional offices, and agency headquarters. Hundreds of 
thousands of Federal employees work in these buildings, and 
millions of Americans visit every day.
    Time and again, Federal buildings and employees have been 
demonstrated to be targets. Recent events in Washington, DC, 
Austin, Las Vegas, and even Kansas City serve as a wake-up call 
to both the administration and Congress that the time for 
discussion, studies, years of reports that highlight the same 
failures has ended. Action is required now, and not after the 
next major terrorist attack.
    Regarding manpower, in the period following the terrorist 
attack on the Alfred P. Murrah Federal Building in Oklahoma 
City, it was determined that the minimum number of FPS 
personnel necessary to perform its mission was 1,480. Since the 
Department of Homeland Security was stood up in 2003, the FPS 
has seen its total number of inspector and police officer 
positions drop from 1,017 in 2003 to 830 at the beginning of 
2010, an 18.4 percent reduction.
    Over the same period, U.S. Parks Service increased its 
security personnel by 45.5 percent. The Veterans Health 
Administration increased its security personnel over 35.9 
percent. Even within DHS, security personnel increased over the 
7-year period of 230.5 percent. The result of this resource 
starvation is that FPS security services have been slashed to 
the point of ineffectiveness. No longer do FPS police officers 
operate on a 24-hour patrol basis, even when responsible for 
protecting level four high-security facilities. No longer does 
the agency have the personnel necessary to adequately oversee 
private guards due to a lack of manpower.
    All of this has occurred in a post-9/11 environment that 
has made anti-terrorism efforts the highest of priorities in 
the White House and Congress. As a result of the extremely 
limited resources provided to FPS, the agency has been in 
disarray, leaving employees in certain of their jobs, contract 
guards, routinely unsupervised, and managers operating fiefdoms 
free of any central control of direction.
    Mr. Chairman, I believe we are on borrowed time when it 
comes to this very large gap in our national homeland security 
safety net.
    Contract guard issues, every day Federal protective 
officers put their lives on the line to accomplish their 
critical homeland security mission, to make sure facilities are 
protected and contract guards are correctly trained and 
proficient in their duties. Despite these efforts, FPS does not 
have sufficient staff to accomplish these vital tasks.
    One glaring example is the monitoring and training of 
contract guards. In 2001, there were 5,000 contract guards and 
FPS was authorized over 1,450 personnel. By 2009, there were 
15,000 contract guards, but FPS was authorized only 1,225 total 
personnel. A threefold increase in guards coupled with a 16 
percent cut in FPS staff is a recipe for failure.
    No one should have been surprised to discover shortfalls in 
contract guard management, performance, and ability to detect 
weapons and explosives. Clearly, OMB should have increased the 
resources for monitoring rather than imposing a cut.
    In conclusion, I would like to thank the members of the 
committee for holding this hearing. I hope that it will serve 
as the beginning of a process that will lead to comprehensive 
FPS reform legislation this year. I know that Senator Lieberman 
has announced his intention to introduce such legislation soon, 
and we urge the House to do so, as well.
    Thank you.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T7976.052
    
    [GRAPHIC] [TIFF OMITTED] T7976.053
    
    [GRAPHIC] [TIFF OMITTED] T7976.054
    
    [GRAPHIC] [TIFF OMITTED] T7976.055
    
    [GRAPHIC] [TIFF OMITTED] T7976.056
    
    [GRAPHIC] [TIFF OMITTED] T7976.057
    
    [GRAPHIC] [TIFF OMITTED] T7976.058
    
    [GRAPHIC] [TIFF OMITTED] T7976.059
    
    [GRAPHIC] [TIFF OMITTED] T7976.060
    
    [GRAPHIC] [TIFF OMITTED] T7976.061
    
    Mr. Lynch. Thank you, Mr. Wright.
    I now yield myself 5 minutes.
    President Kelley, you had an opportunity to go to the IRS 
facility in Austin. You had a chance to talk to the employees. 
First of all, my condolences to your organization for that 
loss.
    Ms. Kelley. Thank you.
    Mr. Lynch. What were the suggestions, recommendations, 
urgings that you heard there in terms of trying to address that 
situation on the ground? Were there any concrete 
recommendations that came out of at least a preliminary 
investigation?
    Ms. Kelley. In the immediate aftermath, Mr. Chairman, there 
really have not been. The focus has been more on what happened 
that day and how so many were able to get out successfully. For 
example, when we were there and met with the employees, they 
thanked their co-worker who had been responsible for fire 
drills. And everybody knows whoever runs the fire drills, 
somebody is always trying to hide to not have to actually 
practice. And they made it a point of thanking her, because 
they knew what to do that day.
    So there really has been more thought to now getting them 
situated. They just returned to work last Monday in other 
buildings until there is a new replacement building for them to 
move to.
    So now the conversations are more leaning toward what can 
be done, you know, what are they concerned about, what should 
we pay attention to for the future, especially in the new site 
that they will be moving to. So as that develops, we will be 
working very closely with the IRS in an effort to put plans in 
place that make those suggestions reality.
    Mr. Lynch. Thank you.
    We are sort of doing an informal assessment across the 
board for IRS facilities, and I notice that there are--and I am 
not sure which level. I know you have different levels of 
sensitivity and security that are required. But I did notice 
that there were about 275 facilities that had no protection 
whatsoever, not even security guards.
    I am just curious, you know, each of you, what your 
thoughts are on that. I think that might be a function of this 
1,250 minimum staffing requirement, that you just don't have 
enough folks. I know there is also an additional 15,000 private 
security guards that are hired as contractors to do some of 
the, I guess, basic security outside the building, that type of 
thing. Your thoughts on the manning requirement and also the 
status of having at least 275 IRS facilities that don't have 
any security whatsoever.
    Ms. Kelley. I will say for my part that employees would say 
there are too many IRS facilities without some guard presence. 
I am sure that Mr. Wright knows better than I the number that 
have FPS presence. Most of them that I am aware of, some of the 
larger buildings have FPS, but the majority of them have 
contract guards rather than FPS.
    Like I said, this is an issue for employees. Many of them 
believe their facility and the situation that they are in 
warrants a guard. It comes down to resources. It is an issue we 
are always debating the IRS with over the money, because there 
is a cost attached to it, definitely. But it is an issue that 
has been long a point of disagreement between us over how much 
is needed.
    Obviously, as someone had asked before, the Austin attack 
was not going to be prevented by having guards or FPS there, 
but it highlights, when things like that happen it makes you 
think about the things that can be controlled and the need for 
a focus and a recognition that there need to be resources to 
adequately protect these buildings.
    Mr. Lynch. Mr. Adler, same question.
    Mr. Adler. Yes. I agree. Colleen is exactly right. It is a 
resource issue. And in this instance, it is a matter of 
response. If you don't have a physical presence, if you put 2 
people on a playing field to go against an 11 with a full 
bench, as well, you can't play. You are at a tremendous 
disadvantage and people are at risk.
    So what do you do? I think one of the disputes, I represent 
IRS special agents as well as TIG, or Treasury IG special 
agents, and they have a little ongoing dispute as to who 
responds to certain situations. So if you don't have perimeter 
or building security but in certain instances you may have 
special agents in there, well, guess what, they are responsible 
and they own it and they need to be trained to respond. They 
can't have any doubt. You can't play who is in charge when it 
hits the fan.
    One of the issues that needs to get addressed and needs to 
be resolved is who claims ownership and what training is in 
play to respond.
    Colleen is absolutely right: we are not concerned, well, we 
can't prevent a plane. That is beyond our Superman and 
Superwoman abilities. You can't prevent a plane from flying 
into a building. But what happens in a situation like what 
happened in the Las Vegas courthouse, only now it is an IRS 
facility? And instead of one elderly person with mental issues 
coming in with a shotgun, you have more highly skilled, trained 
terrorists coming in with assault weapons? Well, what do we do? 
We should have an answer. We can't make this up when it 
happens. We need to get it done and planned for now.
    Mr. Lynch. Thank you.
    Mr. Wright.
    Mr. Wright. Yes, sir, this kind of delves back into the ISC 
and the facilities security committees. The ISC is not 
codified. They are not the authority. They come up with 
recommendations, and once those recommendations reach the field 
it is up to an FPS inspector, when we are dealing with our 
buildings, our properties that we are responsible for, it is up 
to that inspector to take those recommendations, make those 
recommendations to the facilities security committee, which is 
mainly staffed by lay personnel. Very rare that you get a good 
security-wise person on those committees.
    So what happens, the reason you would have a number of 
properties, IRS properties that have no security personnel 
onsite is the recommendations have likely been made, they have 
been presented to the Facility Security Committee. That 
committee has to weigh that recommendation against their yearly 
budget, usually their operating budget. Sometimes they have 
security funds, sometimes they don't. Generally, these things 
get voted down. There is no authority at this time to mandate 
any building in any sector of the Government to provide 
security.
    I know of a case now of a very major Federal building where 
a GSA type is the head of the Security Committee and you would 
be very surprised how lacking that is. I would be glad to tell 
you about it behind closed doors, because it just does not 
happen.
    Mr. Lynch. All right. Thank you very much.
    I now yield 5 minutes to the ranking member, Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Ms. Kelley, there are many great acts of heroism that 
happened in Texas, and for that we are eternally grateful and 
thankful. I am sure we will never hear all of the stories of 
people who reacted the right way at the right time and woke up 
that morning and had no idea that was going to happen, so for 
that we are so grateful, and obviously saddened for the loss of 
anybody who should never have had to go through that, nor 
should their family. It is just absolutely and totally 
inexcusable.
    It is still early, but, based on what you have known or 
have seen or have heard, at least at this point, what is it in 
Texas that could have or should have happened that maybe didn't 
happen, because the results were in many ways miraculous, but 
at the same time there is always things you want to learn and 
share and grow from. So can you give us a little insight as to 
that perspective?
    Ms. Kelley. No. Again, the focus has been on whether it was 
the luck or just everyone acting together, just the pulling 
together. I mean, I really have not heard of anything that day 
someone said I wish this or I wish that. And the IRS has been 
very, very responsive and very, very understanding. They have 
been wonderfully supportive to these employees since the 
attack.
    So, like I said, in looking forward I will tell you when 
the Austin attack happened, even though it was an airplane, IRS 
employees from around the country felt very, very vulnerable 
because what they realized was it could have been their 
building. If the anger was at the IRS, it could have been any 
IRS building. And it reminded them of things that maybe are 
more within the control, whether it is about the need for armed 
guards, whether it is about lighting that isn't working in 
parking lots, whether it is about cipher locks not working or 
fire alarms not properly working in the building, things that 
you identify and you pursue and then something else happens and 
you kind of lose sight of it. So events like this bring all 
that back into focus.
    But really I have talked to many of these employees and to 
our local chapter president there, and they have not identified 
anything that went wrong that day. I mean, it really was a 
miracle. It was one life too many, but it was a miracle that 
there were not more.
    Mr. Chaffetz. And point well taken. I guess we should 
always continue to probe and understand and look at all the 
different scenarios, so I would obviously concur with that 
thought and hope that we continue to expand that.
    I guess, Mr. Chairman, one of the points I guess I would 
take away from that is we should also highlight everything that 
went right. You can never plan for everything. There is no end 
to the creativity of these nuts who want to create terror, but 
at the same time there are a lot of things that went well, and 
I think we should also highlight and explore and note those, as 
well.
    And perhaps, Mr. Adler or Mr. Wright, you can help me 
understand where your perception of the FPS, but also the 
difference between the contractors, if you will, as opposed to 
those. And help me understand the difference in where you see 
the fundamental flaws. Either one.
    Mr. Adler. And you are referring, just to clarify, to the 
FPS inspector versus the contract uniform?
    Mr. Chaffetz. Yes. The specific concerns about contracting 
that out. I have real concerns about doing that.
    Mr. Adler. Just from my perspective--and I am going to 
defer to Mr. Wright--but just, again, by way of background and 
training, the inspectors go through a different process. The 
contracting system obviously involves a private company which 
doesn't place the same emphasis on what it would take to become 
an inspector, whether it is going through the Federal Law 
Enforcement Training Center or certain agency-specific training 
modules. So certainly we place more reliance, if you will, on 
the inspector, the Federal uniform component within FPS.
    Mr. Chaffetz. Mr. Wright.
    Mr. Wright. The Federal Protective Service inspectors and 
police officers go through the Federal Law Enforcement Training 
Center. Nowadays we are up to 24 or 26 weeks of training. The 
contract security guards are private guards. They have 
commitments to their companies.
    The other thing that needs to be stated in regards to these 
private guards is they get their authority basically State to 
State or more likely city to city. There is no Federal 
authority for a private guard. So in Kansas City, MO, where I 
come from, the Kansas City Police Department and the St. Louis 
Police Department have pretty good private watchmen 
commissions, and they do give the authority to arrest.
    Fifty miles up the road in St. Joseph, MO, the first 
requirement to get a commission there in St. Joseph is that 
they have a commission in Kansas City. Then 60 miles to the 
east in Chillicothe, MO, the way you get a commission license 
is to show your St. Joseph license.
    So this goes city to city, building to building, region to 
region. There just is no common sense there, and that is why 
one of our recommendations is let's get Federal security guards 
or Federal police officers, much like you have here at Capitol 
Police, give these individuals the authority, give them the 
training, and let them do their job.
    That being said, this is not to denigrate any of our 
contract guards. We have a lot of great veterans coming back 
and they are being picked up by these private companies, and no 
denigration at all to those troops, either.
    Mr. Chaffetz. All right.
    Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    The Chair now recognizes Ms. Eleanor Holmes Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    My condolences, particularly to you, Ms. Kelley, and my 
thanks to you and to Mr. Adler and Mr. Wright for your service 
to the United States.
    Mr. Wright, I find your charts amazing.
    Mr. Wright. Yes.
    Ms. Norton. The charts at the rear of your testimony that 
rather much point up, I think, the difficulties that we are 
having with security for Federal employees.
    You point to what you call the exponential growth of 
security and law enforcement staff in virtually every agency 
except the Federal Protective Service, including a Government-
wide growth for the last seven or so years of 56.5 percent, 
whereas FPS, alone, shows negative growth of 18.4 percent.
    Mr. Wright. Correct.
    Ms. Norton. Now, you cite some of these agencies. Doesn't 
this show that with this huge growth, that first these agencies 
know they are living post-9/11, so if they can't get it from 
FPS aren't we in effect forcing outsourcing to whatever 
contract guards they choose, without any relationship to any 
central security authority of the U.S. Government?
    Mr. Wright. Yes. Just this year, alone, I have heard of 
agencies coming forward and proposing to hire their own 083 
police officers, and actually Social Security is probably the 
best security-minded agency out there that are our clients, but 
they have looked into hiring their own 083 police force.
    Ms. Norton. So what we have here, Mr. Chairman, I think, is 
agencies deciding that, since FPS has been shrinking, since the 
Federal Government has not been requiring Government-wide 
security, since we have outsourcing authority, let's set up 
multiple police forces replicating what the FPS is supposed to 
do Government-wide, without any central connection to minimum 
standards for these almost always contract guards and not 
people who are, as one of you has testified, police officers 
who go to be trained at the same place where our best police 
officers in the Federal Government go.
    So what we are talking about, I want to just get in the 
record, multiple police forces popping up, agency by agency, at 
the agency's discretion, just leaving the whole idea of a 
Government-wide Federal police force out there to flounder. Is 
that not the case?
    Mr. Wright. Much of that, Ms. Norton, is the way that FPS 
is funded. We are funded through a security fee of charges per 
square foot. At this point it is up to $0.66 a square foot. 
What happens is these agencies see all this money flowing to 
FPS.
    Ms. Norton. So how do they pay for the outsourced police 
forces that they set up without any expertise of their own?
    Mr. Wright. I don't know.
    Ms. Norton. See, here you have FPS saying you have to have 
it per square foot, and they say, OK, since nobody is 
compelling me to use them, who cares about those standards? 
Let's just hire our own independent police force and make our 
own standards.
    How anybody can tell me that is going to protect the IRS or 
any other agency, I don't know, but I think it important to 
note that we are not here talking about what FPS does or 
shouldn't do; we are talking about the existence of auxiliary 
police forces, or I should say alternative police forces in 
agencies where at will they can decide who they are, what their 
standards are, with virtually no Federal oversight through the 
FPS or, for that matter, through the Department of Homeland 
Security.
    What's the relationship, Mr. Adler or Mr. Wright, of the 
FPS to the local police forces of a particular city or county?
    Mr. Adler. It varies. I think Director Schenkel hit on it. 
But in my experience what I have seen, there can be a 
commonality, there can be a camaraderie, but ultimately most 
local law enforcement, first of all, they are not allowed to 
carry within a Federal facility. Most of them aren't familiar 
with the layout. So if you rang the alarm and they came, they 
might find the front door but they may not be familiar with the 
layout.
    I think the role of local law enforcement, to put it in 
proper perspective, is really to arrive on the scene quickly to 
provide perimeter security, crowd control, but really it is 
incumbent upon the police officers, the law enforcement 
components within the building working for the agencies to 
respond and prevent the situation from going from bad to worse.
    Ms. Norton. And I think that is important for the record, 
Mr. Chairman, since Mr. Schenkel said they depend on local 
police forces. The notion that busy police forces should do 
anything but what they would do anyway if there was something 
on the outside of the business is very disconcerting to hear.
    Mr. Chairman, if I could just conclude by noting that in 
Mr. Wright's testimony--and ask him if he knows what these 
cities are--he says that at a minimum--it is under FPS 
structural problems--at a minimum, around-the-clock protection 
by Federal law enforcement officers should be provided in the 
18 to 22 cities with the greatest concentration of employees--
meaning Federal employees--and facilities.
    I think you say that 24-hour service is only provided in 
two cities. What are those cities?
    Mr. Wright. Can I approach that off the record? I am not 
sure it is appropriate to say in a public setting.
    Ms. Norton. Yes. Could you make sure that the chairman 
understands that?
    Mr. Wright. Yes. I think you will be very surprised as to 
who doesn't have it.
    Ms. Norton. Yes. Make sure the chairman gets that in camera 
so we can understand that. I just think that we know what 
those--almost anybody could guess what those 18 cities, 18 of 
22 cities with the greatest concentration are, and everybody 
would know that those are the cities that we regard as most 
targeted, and what your testimony here today has informed us is 
that we have to get on the stick.
    What happened to IRS with extraordinary sadness from all of 
us was a kamikaze event of the kind that perhaps no police 
force of any kind could have deterred, but it certainly ought 
to be a shot across our so-called bow to remember that this is 
not the kind of attacks we should be expecting, especially in 
IRS offices.
    I work very closely with the IRS here. I have found IRS 
employees to be among the most collegial, the most customer 
oriented employees in the U.S. Government. But if you are out 
here in this recession paying taxes, lost your job, house gone, 
and you can't find anybody else to be mad at, there is always 
your local IRS employee, and we have a duty to protect these 
employees every day of the week that they are on duty.
    Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Kelley, welcome. I am sorry I was stuck up here the 
other day, and I thank you for your kind introduction in my 
absence. In your prepared statement you made reference to the 
fact that you were shocked at some statements by certain public 
officials after the tragedy in Austin. Would you elaborate?
    Ms. Kelley. There was a Member of the House of 
Representatives who--I don't have the quotes in front of me, so 
I would not want to misquote. I am sure most have seen them in 
the press, and I would be glad to provide them. And when I 
issued statements, and also to a Member of the Senate, and when 
I issued statements expressing shock and disappointment and 
looking for an apology, they were not forthcoming. Those 
apologies have never been forthcoming.
    I think that it is outrageous that anyone would make 
statements like those that have been made, much less someone, 
you know, anyone in a public position that should be supporting 
Federal employees who are just trying to do their jobs.
    Mr. Connolly. If you want to provide more for the record?
    Ms. Kelley. I will be glad to do that.
    Mr. Connolly. It would be welcome. Thank you.
    Mr. Adler, could you elaborate a little bit? You spoke 
fast, and although I am originally from Boston, I have lived in 
the south so long now I have trouble sometimes following a fast 
presentation, but you were making a point between the 
difference between, if I understood your testimony, GSA's first 
screen versus, say, the Israeli approach to security. Could you 
just elaborate on that a little bit?
    Mr. Wright. Yes. We have been addressing this in the TSA 
venue, as well. The concept of taking proactive steps in the 
law enforcement security arena, to not simply sit back and 
become reactionary, become a duck in a barrel, if you will, and 
pray the barrel is durable enough to withstand the attack, be 
proactive, but, of course, it is very convenient for me to come 
here and say we should be proactive. You need resources to 
accomplish that. You need human beings in uniforms with 
training and capability and authority to do it.
    Out of respect to Director Schenkel, he is making do with 
what he has, whether it is setting MOUs with local law 
enforcement or anyone else. Ideally, we would have enough. You 
know, we are talking about whether we have police officers or 
inspectors. I would like all of the above. I would love to have 
police officers at every law enforcement or Federal Government 
facility, but that would enable us to take a more proactive 
approach, to have the proper equipment like cameras and so 
forth so we can monitor the area, have the plain clothes 
contingent out there who know and are trained in behavioral 
actions and just things, little indicators we can pick up.
    I know firsthand FPS does an excellent job of that at 26 
Federal Plaza in New York. That is the sort of thing that we do 
want to have happen but, once again, the starting point is 
having the resources to engage in that type of proactive 
investigative security law enforcement activities.
    Mr. Connolly. Although, as Mr. Miller of the other panel 
indicated, all of that, if we did everything you just said, it 
still would not have prevented the terrorist attack in Austin.
    Mr. Adler. Correct. There are two aspects we are talking 
about here for this hearing. One is prevention, the other is 
response. We have to concede. Colleen mentioned the plane 
coming into the building. We concede that. Then we are defined 
how we respond. So, taking it from initially, the Israeli 
approach will minimize the prevention side of things, but, and 
as we all know, human error will occur. Something will get in, 
whether it is an active shooter or an explosive device. The 
question then is: what are we trained and capable of doing in 
response? That was the other side of what I was trying to 
present.
    Mr. Connolly. All right. Thank you. In your testimony you 
also said, if I heard you correctly, that the IRS puts both the 
public and its own employees at risk. What were you referring 
to?
    Mr. Adler. I was referring to quotations that were sent to 
me. I received a lot of emails. I requested input. I have 65 
agencies we represent. Each one has an agency representative. 
So when the email goes out, they have input. What that was 
reflecting was I think it is a lot of frustration among my CID 
special agent members who are concerned that they want to 
passionately get involved, they listen to what Colleen 
describes, and they feel as if they have to make it up at game 
time.
    You can't wing it; you have to plan for it and you have to 
step up and recognize IRS is always going to be a threatened 
component by virtue of what they do, so you have to commit 
resources to training the special agents who are there, who are 
the first responders, to make sure they are not going to make 
it up when it happens, to make sure they don't have to rely 
upon somebody who takes the initiative and heroic ability to 
help in a fire drill or put someone on their back. They should 
plan, and that will minimize, or actually it will increase 
their effectiveness in responding to one of these types of 
attacks.
    Mr. Connolly. And in what little time I have left, Mr. 
Wright, you talked about the FPS being dysfunctional, citing 
some studies that would say that. If you have a series of 
recommendations, I would welcome seeing them. One quick 
question: do you have a view about the relative merits between, 
say, a Federal guard, Federal employee, versus contract 
security?
    Mr. Wright. As stated earlier, private guards have 
basically a mish-mash of authority across the United States. 
Every city, every State is different. The benefits to having a 
Federal guard, our more likely recommendation is Federal police 
officers like you have here at the Capitol, they are FLETC 
trained and they have that Federal authority to immediately 
stop and detain threats or take action against individuals that 
enter the property.
    What we see now--and I will be glad to share later on the 
record--a major city where it has been documented--now, I have 
always had the anecdotal evidence over the years that private 
guards are afraid to put their hands on anyone. We have 
documented cases of individuals running from FPS police 
officers and guards standing by. And just here in the last 
couple of days I received some very disturbing information 
where it has been absolutely documented in our operation shield 
efforts across the country that these guards are witnessing 
threats or witnessing our attempts to penetrate. We are 
witnessing these guards say, I can't do anything. I have to 
stop. If I see something on that x-ray screen that looks 
threatening, I am not going to stop that individual, I am going 
to call FPS or in some cases I am going to call the company 
first. So that is a problem. Federal officers would have that 
authority right here, right now, stop that individual, take him 
down, and do what has to be done. You have a lot of private 
officers out there that are afraid for their own liability.
    Mr. Connolly. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Mr. Lynch. Thank you, Mr. Connolly.
    I want to thank the members of the panel for your 
willingness to come before the Congress and offer your 
suggestions and offer your testimony.
    I am going to leave the record open for 3 days for those 
Members who are on other committees and haven't had an 
opportunity to ask questions, but other than that we appreciate 
your testimony here today and we bid you good day.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T7976.062

[GRAPHIC] [TIFF OMITTED] T7976.063

[GRAPHIC] [TIFF OMITTED] T7976.064

[GRAPHIC] [TIFF OMITTED] T7976.065

[GRAPHIC] [TIFF OMITTED] T7976.066

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
